                              United States Department of State
                              and the Broadcasting Board of Governors

                              Office of Inspector General
Office of Inspector General
                              Semiannual Report to the Congress


                              April 1 to September 30, 2002
  A MESSAGE FROM THE INSPECTOR GENERAL




                                        I am pleased to provide to the Congress my
                                        semiannual report on activities conducted
                                        by my office from April 1, 2002 through
                                        September 30, 2002.

                                         Since taking office a year ago, I have under-
                                      taken several internal initiatives in response to
                                      the President’s Management Agenda specifically
                                      and the Administration’s emphasis in general on
                                      measuring performance and results. I have
                                      improved our own financial management,
                                      accountability, and budget and performance
                                      integration with the implementation of two
                                      systems—the Project Tracking System and the
Office of Inspector General (OIG) Timesheet System. Beginning in FY 2003, these
systems will allow OIG not only to track the timeliness of projects, but their relative
costs as well. Furthermore, by aligning projects with specific performance goals,
OIG can evaluate more accurately the expenditure of resources in support of
individual organizational goals.

     I continue to welcome work requests from Congress on matters of importance
to you. Among congressionally requested work undertaken within the last six
months, my office conducted a review of U.S. policy and actions during the weekend
of April 12-14, 2002, when Venezuelan President Hugo Chávez was briefly ousted
from power, and the six-month period preceding that weekend. I personally led the
review, which found nothing to indicate that the Department or Embassy Caracas
planned, participated in, aided, or encouraged the overthrow. In addition, OIG
reviewed U.S. aid to the Colombian National Police at Embassy Bogota, Colombia,
and we have begun to examine non-immigrant visa issuance procedures in detail. We
will report on this latter work in the next semiannual report.




Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2002   1
        I have also refocused our efforts to review information security within the
    Department and at our overseas missions. To streamline these efforts, my office has
    developed guidelines for evaluating the effectiveness of information security pro-
    grams at the Department’s bureaus and at overseas missions and facilities. We plan to
    evaluate ten missions in FY 2003, depending upon the availability of resources.

        I welcome your thoughts and suggestions on our work. As always, I stand ready
    to testify before you, and to meet with you or your staff at any time about any matter
    within my jurisdiction that may be of interest to you.



                                                                          Clark Kent Ervin




2   Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2002
                        EXECUTIVE SUMMARY



OIG inspects each of the approximately 260 embassies, other diplomatic missions,
and international broadcasting installations throughout the world, as well as the
bureaus and offices in the Department of State (the Department) and the Broadcast-
ing Board of Governors (BBG) in Washington. OIG audits Department and BBG
operations to ensure that they are, to the maximum extent possible, effective, effi-
cient, and economical. OIG also investigates those instances of fraud, waste, and
mismanagement that may constitute either criminal or civil wrongdoing or a violation
of administrative regulations. During this semiannual period, OIG continued to
focus its work on its four strategic goals.




I. The Department and the BBG adequately
protect the people, information, and facilities
under their control in the United States and
abroad.

OIG evaluates the Department’s and the BBG’s efforts to protect the people, infor-
mation, and facilities under their care. During this reporting period, OIG conducted
security reviews in conjunction with OIG management inspections, examining
physical security and emergency preparedness at 21 missions. The reviews identified
several recurring security deficiencies including not conducting the required annual
testing of emergency procedures. OIG continues to stress the importance of
emergency preparedness at embassies. The survivors of the most recent vehicle
bomb attack against the U.S. Consulate in Karachi, Pakistan noted that the lack of
personnel injury was attributed to the use of the alert system and the instinctive
response taken by people due to frequent emergency drills.

    OIG also completed a special review of security at the Department’s Washington
headquarters, which focused on the physical security of the Harry S. Truman build-
ing and immediate response plans for emergencies affecting headquarters.




Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2002   3
        In addition to security reviews conducted in conjunction with OIG management
    inspections, OIG completed full scope security inspections at six embassies, covering
    the full range of the mission’s security programs. Because these reports discuss
    specific security vulnerabilities at the Department and its missions, synopses of these
    reports will be published as a separate classified annex to this report. A list of the
    classified reports issued during this semiannual period may be found in Appendix 2
    of this report.

        As mandated by the Government Information Security Reform Act, OIG
    performed an independent evaluation of information security programs at the
    Department and BBG. OIG reviewed whether the Department and BBG were
    effectively implementing key requirements of the law, such as overall information
    technology security and security risk management. OIG performed a similar review
    in 2001.

        Within the Department, OIG found several key areas that still require manage-
    ment attention. Department progress in addressing information security weaknesses
    identified in OIG’s 2001 report has been slow. As of August 2002, only five percent
    of the Department’s information technology systems had been certified and accred-
    ited as required by law. Further, according to an OIG survey, only 15 percent of the
    Department’s 358 systems have security plans. In BBG, OIG noted that there was
    progress in developing an agency-wide information security program. OIG recom-
    mended that the BBG improve information sharing on common vulnerabilities and
    threats to information systems.

         In response to public and congressional concern about the Department’s ability
    safely to manage and process consular activities, OIG conducted a review of the
    Bureau for Consular Affair’s (CA) information security program. OIG found that
    CA has developed a comprehensive approach to addressing information security
    risks. At the time of OIG’s review, 70 percent of CA systems had risk assessments
    and almost 50 percent of the CA systems were operating with a security level deter-
    mination and an overall security plan in place. However, OIG also found that only
    two of CA’s 36 systems had been certified and accredited, and two had been granted
    an interim authority to operate. The Department acknowledged that more needs to
    be done and is actively planning, prioritizing, and working toward bringing each of
    its active systems fully in line with the information security statutes and Office of
    Management and Budget guidance.




4   Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2002
II. The Department and BBG effectively,
efficiently, and economically advance the
foreign policy interests of the United States

As noted above, in response to a request from Congress, OIG issued an unclassified
report along with a classified annex on U.S. policy and actions during the weekend of
April 12-14, 2002, when Venezuelan President Hugo Chávez was briefly ousted from
power, and the six-month period preceding that weekend. OIG found nothing to
indicate that the Department or Embassy Caracas planned, participated in, aided, or
encouraged the overthrow. Similarly, OIG found that U.S. assistance programs in
Venezuela were consistent with U.S. laws.

    OIG provides the Department and the Congress with comprehensive and
independent evaluations of the operations of the Department, its missions abroad,
and related activities in the form of inspections. During this reporting period, OIG
inspected eight African embassies, seven European and Eurasian missions, two
missions in the Western Hemisphere, the Belize Transmitting station, and two
domestic bureaus.

     In addition to inspecting several U.S. missions in Africa, OIG also inspected the
Bureau of African Affairs (AF). OIG consistently found that U.S. embassies in
Africa are not getting the human resources they need. Pervasive staffing gaps persist
in many embassies in the areas of administration, public diplomacy, consular affairs,
information management, and diplomatic security. In its inspection of AF, OIG
found that staffing shortages overseas and domestically, particularly at the mid-level,
is the bureau’s most serious administrative problem.

     In its inspection of Embassy Luanda, OIG found demoralizing conditions,
particularly with regard to the physical plant. Using trailers, mobile homes, and
prefabricated buildings, the chancery and annex had deteriorated steadily since the
mission was established in 1991. OIG raised concerns about unsafe conditions at
the chancery because of the on-site construction project. In response to OIG’s
findings, the Department dispatched the construction branch chief and the area
manager to Luanda to find ways to correct the problems and compelled the contrac-
tor to assign an American safety supervisor to the construction site. OIG supports
these actions, but is still concerned because the embassy’s annex will remain unsafe
even when the repair and renovation is complete. OIG also believes that the annex
is excessively expensive and inefficient.




Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2002   5
        OIG inspected U.S. embassies in Tbilisi, Georgia; Yerevan, Armenia; and Baku,
    Azerbaijan. In this region, OIG noted that rapid growth in personnel and programs
    had generated a number of management problems, including overcrowding. At all
    three embassies, OIG found that overly restrictive requirements for employees to
    receive the incentive differential created the potential for excessive staff turnover.

         OIG found in its review of the Bureau of Legislative Affairs (H) that the bureau
    is actively promoting greater Department outreach to Capitol Hill. This new ap-
    proach has won considerable support both on the Hill and within the Department.
    Reorganization within the bureau by the new Assistant Secretary has helped raise its
    profile on the Hill. However, it has led to some uncertainty within the bureau about
    job responsibilities, including overlapping responsibilities among legislative manage-
    ment officers. A new Department office in the Rayburn House Office Building,
    staffed by personnel from H and CA, has added an innovative dimension to Depart-
    ment outreach.

        OIG’s inspection of the Bureau of Public Affairs found that the bureau carries
    out, with commendable professionalism, its central role in explaining U.S. foreign
    policy to the American public, while taking on extensive new responsibilities as a
    result of the consolidation of the Department and the U.S. Information Agency.
    The Assistant Secretary for Public Affairs performs his role as Department Spokes-
    man with distinction. Due to the daily imperatives of the Spokesman’s role, how-
    ever, OIG believes that the position of the Department Spokesman should be
    separated from that of the Assistant Secretary for Public Affairs in the future. The
    inspection report also made a number of suggestions for improving the operation of
    several of the bureau’s offices.

         At the request of the Chairman of the Subcommittee on National Security,
    Veterans Affairs, and International Relations, House Committee on Government
    Reform, OIG reviewed the Department’s Foreign Service “up-or-out” promotion
    system. The Subcommittee was particularly interested in the system’s effectiveness,
    citing the retention and recruiting problems that the Department has faced. The
    stated purpose of the Department’s up-or-out system is to ensure a predictable and
    orderly flow through the ranks and to provide promotion opportunities for the best
    officers at all levels. The current system establishes a maximum number of years
    officers may remain at a given class level before they are required to separate from
    the Department. OIG believes that the system accomplishes its intended purpose.
    OIG found that the majority of Foreign Service officers separated during the period
    reviewed because of the up-or-out system were senior or executive-level officers.
    The majority of vacant Foreign Service positions or assignment gaps, however,
    occurred below the senior level.



6   Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2002
    OIG’s inspection of the BBG Belize Transmitting Station found it to be well-run
and inexpensive to operate, but serving a need that no longer exists. Listeners in the
region can receive BBG broadcasts from affiliate or short-wave stations. Efforts to
redirect the station’s broadcasts toward Cuba have met with firm resistance from the
government of Belize, and many of the station’s assets can be used elsewhere to
meet high priority needs. In the absence of agreement from the government of
Belize, the BBG should determine the most effective future use of the station’s
assets.

     OIG reviewed BBG regional operations in West Africa and found that the Voice
of America (VOA) program in Nigeria has been hampered by major equipment
control problems. The most egregious situation was the loss without a trace of
$200,000 worth of equipment the regional marketing and program placement officer
had arranged to go to eight stations in Nigeria, including an important FM radio
affiliate in Lagos. The equipment was shipped by sea by the International Broadcast-
ing Bureau (IBB), but the consignment apparently was never cleared in Lagos by the
general services office of Consulate General Lagos. OIG also found that it is impor-
tant that VOA be on the air in Freetown, Sierra Leone and its environs with a strong
signal while the process of disarmament, demobilization, and reintegration of the
rebel fighters of the Revolutionary United Front continues, and as the United States
seeks understanding and support from Muslim countries for its war against interna-
tional terrorism. The regional marketing and program placement office and the IBB
are to be commended for addressing this situation effectively.




III. The Department and BBG have the
necessary financial and support systems and
controls to meet legal and operational
requirements.

OIG is committed to improving the management and operation of programs and
activities of the Department and BBG by providing timely, balanced, and credible
independent evaluations and financial audits that identify systemic problems and
recommend solutions. During this reporting period, OIG work covered a broad
range of activities, including a follow up review of the cooperative agreement with
the Iraqi National Congress Support Foundation (INCSF), an examination of the
trial costs related to the bombing of Pan Am Flight 103 over Lockerbie Scotland,
and reviews of Department contractor oversight and BBG inventory controls.




Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2002   7
        At the request of the Department, OIG conducted a follow up review related to
    recommendations in our September 2001 audit of Department awards to
    the INCSF. OIG reviewed corrective actions taken by INCSF and also examined
    whether it had expended federal funds for the intended purpose of the agreements
    and in accordance with applicable federal laws and regulations. OIG found that
    INCSF had taken significant steps to implement OIG’s recommendations, and the
    restriction of funds recommended in the prior audit report was no longer necessary.

        At the request of the Department, OIG reviewed the costs incurred in conduct-
    ing the trial of the two Libyans accused of blowing up Pan Am flight 103 over
    Lockerbie, Scotland. The U.S. had agreed to pay half the appropriate incremental
    costs of conducting the trial in the Netherlands, rather than in Scotland. OIG’s
    review verified the total costs of conducting the trial, and determined the appropri-
    ate U.S. share of incremental costs.

          In light of the Department’s goal to expand regional support and reduce its
    overseas presence, OIG evaluated the operations of the Regional Procurement
    Support Offices (RPSO). The offices provide support to missions in procuring
    goods and materials and processing the solicitation of bids and establishment of
    contracts. OIG reviewed whether these offices were properly organized, located,
    managed, and funded, and also whether the Department was properly accounting for
    operations and recovering full costs through reimbursements to the Working Capital
    Fund. OIG found that RPSO provides effective services that are highly rated by the
    missions receiving them in several regions, including Europe and Africa. However,
    OIG noted that RPSO provides only eight percent of total overseas procurement; so
    it is not meeting its potential. OIG concluded that RPSO would benefit from
    planning that addresses current deficiencies in management and geographic cover-
    age, as well as changes in organizational structure to put all three current offices
    under one organization and one manager.

         The Department is replacing its financial management system in Charleston and
    Bangkok with a new system called the Regional Financial Management System
    (RFMS) and asked OIG to review the RFMS Test Documentation Standard to
    determine whether the procedures for documenting future RFMS tests were ad-
    equate. OIG found that the standard was generally adequate for future RFMS tests
    and provided adequate accountability. The standard will also be useful in keeping the
    test documentation consistent throughout all test phases in the RFMS life cycle.
    OIG advised the Department to modify a section of the Test Documentation
    Standard to require written approval before any test results can be destroyed.




8   Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2002
     OIG conducted a review to determine whether the Department had effective
systems and procedures in place to monitor contractor performance. OIG examined
three domestic contracts, with a combined value of $54 million, to determine
whether policies and procedures were adhered to and whether the terms and condi-
tions of the contracts had been met. In addition, OIG administered a questionnaire
to Department officials worldwide who have served as contracting officer’s represen-
tatives. In over 100 responses, officials provided valuable insights into Department
procurement operations. Several recent OIG audits have examined performance
monitoring on specific contracts. OIG has referenced the results of those audits in
this review to offer a broader perspective on Department operations.

    In general, OIG found that Department personnel followed policies and proce-
dures related to contractor performance, ensured that contract terms and conditions
were being met, and received appropriate training. However, OIG identified defi-
ciencies in oversight that mirrored results from prior OIG contract audits. In addi-
tion, the review and questionnaires pointed to shortcomings, including invoices that
were not processed in a timely manner and contract ceilings that were exceeded.
OIG supports the Department’s move to strengthen its oversight by establishing a
new division to oversee contractor performance monitoring.

    To assess how well the IBB was managing its assets, the OIG reviewed the
policies and procedures for the management of, and controls and accounting for,
IBB’s domestic, nonexpendable personal property from October 1999 to March
2002. OIG reviewed whether IBB had established policies for inventory controls
and was implementing them and, if so, whether they were effective.

     OIG found that IBB did not have fully functioning property management
policies and procedures for domestic, nonexpendable property to ensure the effi-
ciency and effectiveness of operations and to meet agency property reporting
requirements fully. Although current policies require that domestic property invento-
ries be conducted every two years, OIG found no evidence of a complete property
inventory conducted by IBB. OIG recommended that IBB conduct an agency-wide
inventory to establish an accurate baseline for its domestic, nonexpendable personal
property and implement a plan to bring it into compliance with applicable account-
ing and reporting requirements for property management. IBB recognized the need
for planning improvements in the property system and was taking steps in that
direction– for example, updating property policies and procedures and placing a
major focus on disposing of excess property, which should facilitate the physical
inventory process.




Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2002   9
     IV. The Department and BBG are free of
     fraud, waste, abuse, and mismanagement.

     OIG investigates allegations of fraud, waste, abuse, and mismanagement related to
     Department and BBG programs, and assists in preventing, as well as detecting, fraud.
     During this semiannual period, OIG conducted investigations in the areas of immi-
     gration and visa fraud, theft, employee misconduct, and conflict of interest.

         OIG conducted a joint investigation with the U.S. Department of Labor, Immi-
     gration and Naturalization Service, and Internal Revenue Service, based upon infor-
     mation that a Virginia immigration attorney and a Department personal services
     contractor were involved in an immigrant visa fraud scheme. The investigation
     established that the Department contractor, who was employed as a fire safety
     engineer, had acted as middleman for the immigration attorney in approaching
     managers of restaurants and other businesses in the Washington, DC area. He had
     also assisted the immigration attorney in submitting hundreds of applications for
     labor certification through the Virginia Employment Commission to the U.S. De-
     partment of Labor. All of these applications were determined to be fraudulent.

         In July 2002, the investigating agents arrested the immigration attorney and the
     Department contract employee based upon warrants for immigration fraud. The
     agents seized more than $40,000 that the Department employee had in his posses-
     sion at the time of his arrest, more than $900,000 in cash during the search of his
     apartment, and approximately $2.5 million from his bank account. The Department
     employee’s personal services contract was terminated after his arrest. In August
     2002, he pleaded guilty to five felony counts, including immigration fraud, money
     laundering, extortion, labor certification fraud, and conspiracy to commit labor
     certification fraud. He also agreed to cooperate with the government. Charges
     against the immigration attorney were pending at the end of this reporting period.

         In February 2002, the U.S. Ambassador to Beijing asked the OIG to conduct a
     review of The Bridge Fund to ensure that U.S. funds were being effectively used
     based on embassy concerns about this grantee’s financial management. The Bridge
     Fund was established in 1996 to help Tibetan communities in China preserve their
     cultural traditions, promote sustainable development, and conserve the environment.
     In response to concerns raised by Embassy Beijing, The Bridge Fund submitted a
     memorandum to the Department in February, 2002, that described what The Bridge
     Fund was doing to improve its operations and programs, including hiring and train-
     ing additional staff and conducting project audits and reviews. OIG reviewed the



10   Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2002
memorandum and held discussions with Bridge Fund officials, and believes that The
Bridge Fund is making a good faith effort to respond to the Department’s concerns.
Based on this memorandum, the Department can determine what, if any, additional
actions The Bridge Fund must take before awarding a new grant.

    In May 2001, the Department advised OIG that an internal review had disclosed
significant suspicious post assignment travel charges associated with the U.S. embassy
in Lusaka, Zambia, and that almost $2 million in suspect charges had been identified.
OIG investigators reviewed records of payments from the Department to vendors in
connection with post assignment travel charge vouchers filed at Embassy Lusaka.
OIG determined that numerous payments had been made to bogus vendors who
had provided no services to the embassy or the Department. Several of these bogus
vendors were located in Connecticut and in the Washington, DC area.

    In March 2002, OIG agents executed an arrest warrant in Waterbury, Connecti-
cut on a Zambian national who had received some of these fraudulent payments.
Search warrants were also executed, in both Connecticut and Virginia, at residences
associated with the bank accounts. In June 2002, the person pleaded guilty to a
felony charge of conspiracy to receiving stolen government money.

    OIG received information from the Department indicating that a Civil Service
computer operator had claimed to be working for the Department when she was
also being paid to work by a Department contractor. Record reviews established that
she regularly left her Department work area two hours prior to the end of her shift
to report to work for the contractor, but claimed that she had worked her full shift at
the Department. The employee admitted her conduct to OIG investigators. In July
2002, OIG provided reports of investigation to the Department. The Department
provided the employee with a notice of indebtedness in the amount of $3,289, and a
notice of proposed removal.

    Finally, an OIG investigation determined that a Foreign Service officer assigned
overseas engaged in a conflict of interest by appearing in and allowing his name and
official title to be used in a newspaper advertisement for a local real estate company.
In addition, the Foreign Service officer also appeared in three TV commercials for
which he was compensated. In May 2002, the Department notified the officer that
he was being suspended for five days for his actions.




Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2002   11
12   Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2002
    CONGRESSIONAL ACTIVITIES AND OUTREACH



Reports Requested by Congress
The OIG conducted the following reviews in response to legislative mandates and
requests from Congress:

•   In May 2002, the Co-Chairman of the Senate Caucus on International Narcotics
    Control asked OIG to follow up on press reports that $2 million in U.S. aid to
    Colombian National Police counternarcotics efforts was discovered “missing.”
    OIG briefed the committee staff, and will issue a report detailing the loss during
    the next semiannual reporting period.

•   In response to a request by the Chairman of the Senate Subcommittee on
    Western Hemisphere, Peace Corps, and Narcotics Affairs of the Committee on
    Foreign Relations, the Inspector General personally led a team of inspectors,
    auditors, and information technology experts in reviewing whether the Depart-
    ment and Embassy Caracas played any role in the brief overthrow last April of
    the Chávez government.

•   At the request of the House Appropriations Committee, the aforementioned
    review of U.S. policies and actions in Venezuela included an examination of the
    activities of the National Endowment for Democracy in Venezuela.

•   In response to a request by the Chairman of the House Subcommittee on
    National Security, Veterans’ Affairs, and International Relations of the Commit-
    tee on Government Reform, OIG produced a report on the Department’s
    Foreign Service “up or out” promotion system.

•   As mandated by Section 647 of the Treasury and General Government Appro-
    priations Act of 2002, Public Law 107-67, OIG reported to the Chairmen
    and Ranking Members of the House and Senate Appropriations’ Committees on
    the Department’s efforts to place a priority on locating new offices and other
    facilities in rural areas.




Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2002   13
     •   In response to a request by the Senate Subcommittee on Foreign Operations,
         OIG issued a report determining the additional costs of holding the Lockerbie
         plane crash trial in the Netherlands rather than Scotland.

     •   As mandated by the Government Information and Security Reform Act, OIG
         issued a report on its evaluation of the Department’s and the BBG’s informa-
         tion security programs and practices.

     •   In response to a request by Senator Grassley, OIG reviewed non-immigrant visa
         issuance procedures at a mission and consulate overseas, and provided informa-
         tion to committee staff.



     Proposed Legislation Reviewed by OIG
     The OIG reviewed and provided comment on the following proposed legislation:

     •   On April 15, 2002, the Inspector General provided comments to the Chairman
         and Ranking Member of the House International Relations Committee on HR
         3969, the Freedom Promotion Act, which includes provisions affecting public
         diplomacy programs within the Department and the BBG.

     •   On September 6, 2002, the Inspector General provided comments to Senator
         Grassley regarding his amendment to HR 5005, the Homeland Security Act,
         which calls for the assignment of Homeland Security personnel to embassies
         to monitor visa issuance.

     OIG reviewed several measures as they pertain to OIG related activities, including:

     •   HR 1646 and S 1401 – The Foreign Relations Authorization Act, Fiscal Years
         2002 and 2003

     •   S 2778 - The Departments of Commerce, Justice, State and the Judiciary and
         Related Agencies Appropriations Act Fiscal Year 2003

     •   HR 5410 and S 2779 - The Foreign Operations, Export Financing, and Related
         Programs Appropriations Act Fiscal Year 2003.

         The Inspector General met on several occasions with members of the House
     and Senate and their staffs to review and comment on a variety of issues and ques-
     tions regarding proposed legislation affecting the operations and programs of the
     Department and the BBG.



14   Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2002
Outreach/Media Assistance
The Inspector General briefs all newly appointed ambassadors and new Foreign
Service officers on the role and function of the OIG, as well as on specific issues
related to their respective assigned embassies. Members of the OIG executive staff
provided briefings to two classes of new Civil Service employees on the role, mis-
sion, and services provided by OIG.

   The Inspector General was invited to participate in a conference for FSNs on
September 26 and made a presentation to 45 FSN participants on the work of the
OIG.

     During this reporting period, OIG responded to several media inquiries regard-
ing its review of U.S. policies and actions in Venezuela, as well as other OIG activi-
ties and reports.

    Anti-corruption

The Acting Inspector General for Congressional/Media Affairs, Policy and Outreach
conducted a three day anti-corruption seminar for the Honduran Government, and
participated in a WorldNet interactive meeting on “Anti-corruption Strategies and
Money Laundering.”

    The Acting Assistant Inspector General for Congressional/Media Affairs, Policy
and Outreach and the Assistant Inspector General for Inspections met with the
Embassy of Ireland to discuss the establishment of an inspection process in the Irish
foreign ministry.

    Policy Review

OIG continued to review and comment on new and revised Department policies
and procedures. The policies and procedures published include strengthened man-
agement and internal controls and more clearly defined lines of authorities and
accountability.

   OIG participated in the President’s Council on Integrity and Efficiency (PCIE)
monthly meetings with other Inspectors General. The PCIE focused on ways to
improve the economy and efficiency of government programs and operations, better
coordinate joint efforts and address common concerns, and share best practices to
improve the work of Offices of Inspectors General.




Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2002   15
       OIG continued its participation in the Department’s senior level Management
     Control Steering Committee to identify and make recommendations to correct
     material weaknesses that were reported to the President and the Congress.



     Progress in Implementing the Government
     Performance and Results Act
     The Department continues to make progress in strategic and performance planning.
     The Department created an Office of Strategic and Performance Planning in the
     new Resource Management Bureau (RM), and has taken steps to align the planning
     and budgeting processes. For example, the revised mission performance planning
     process requires missions to prioritize their objectives and limit goal papers to the
     top five performance goals. Further, OIG officials attended many of the senior
     policy and management reviews chaired by the Deputy Secretary and found them to
     be well focused on the major policy issues and resource needs of each bureau.

         Improvement is still needed in establishing performance goals and measures
     within specific areas, however. For example, OIG’s review of RPSO found that,
     despite the President’s management initiative to “right size” overseas missions, the
     Department had not developed a strategic plan or clear performance goals for RPSO
     operations, and the RPSOs were not realizing their full potential as providers of
     regional services.



     Review of the Department’s Federal
     Financial Management Improvement Act
     Remediation Plan
     Agency financial management systems must comply with the Federal Financial
     Management Improvement Act of 1996 (FFMIA) requirements. If they do not, the
     agency must establish a remediation plan, which includes the resources, remedies,
     and intermediate target dates to bring the systems into substantial compliance.
     The Department established a remediation plan in March 2000 to bring its systems
     into compliance by September 2003, and it updated the plan in October 2001.

         Under FFMIA, OIG is required to report in its Semiannual Report to Congress
     instances and reasons when an agency has not met intermediate target dates estab-
     lished in the remediation plan. OIG reviewed the Department’s progress, as of


16   Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2002
June 2002, in meeting the intermediate target dates it had established. The Depart-
ment had made considerable progress in its efforts to comply with FFMIA by
completing 50 percent of its remediation plan projects and, as a result, reducing its
degree of noncompliance.

    However, OIG found that the Department had extended intermediate target
dates for four projects: Fixed Assets System – Personal Property, Financial Reporting
Software, Business Continuity and Contingency Plans, and Central Financial Plan-
ning System. Extended target dates for the first three projects were the result of
delays in project initiation and the complexity of data conversion. The Department
expects to complete these projects by September 2003. The Department restruc-
tured the fourth project, the Central Financial Planning System, and established new
milestones and target dates. The restructured project is not expected to be completed
until December 2004.

   OIG plans to issue a report discussing its review in more detail during the first
quarter of FY 2003.




Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2002   17
18   Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2002
                                      OIG MEMO




Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2002   19
20   Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2002
                             SPECIAL REPORT


A Review of U.S. Policy Toward Venezuela
November 2001 – April 2002 (02-OIG-003)
In response to a request from Senator Christopher J. Dodd, Chairman of the Sub-
committee on Western Hemisphere, Peace Corps, and Narcotics Affairs of the
Senate Foreign Relations Committee, the Inspector General issued an unclassified
report along with a classified annex on U.S. policy and actions during the weekend of
April 12-14, 2002, when Venezuelan President Hugo Chávez was briefly ousted from
power, and the six-month period preceding that weekend. OIG found nothing to
indicate that the Department or Embassy Caracas planned, participated in, aided, or
encouraged the overthrow. The record shows that the Department and the embassy
consistently dis-
couraged the use of
undemocratic and
unconstitutional
means to remove
the democratically
elected Chávez
government.
Similarly, OIG
found that U.S.
assistance programs
in Venezuela,
including those of
National Endow-
ment for Democ-                           Venezuelans demonstrate in Caracas.
racy (NED), were
consistent with U.S. law and policy in support of democracy and constitutionality.
While it is clear that NED, the Pentagon, and other U.S. assistance programs pro-
vided training, institution building, and other support to organizations and individu-
als understood to be actively involved in the events of April 12-14, we found no
evidence that this support directly contributed, or was intended to contribute, to
President Chávez’s brief ouster.




Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2002   21
                                         SECURITY




22   Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2002
                                    SECURITY



Security Audit
During this reporting period, Office of the Inspector General Security and Intelli-
gence Oversight Office (OIG/SIO) completed a special review of security at the
Department’s Washington headquarters. The review principally focused on the
physical security of the Harry S. Truman building and immediate reponse plans for
emergencies affecting headquarters.



Security Inspections
During the period of April 1 to September 30, 2002, OIG/SIO published 28 reports
related to its security oversight inspections. Twenty-one of these inspections were
conducted in conjunction with management reviews by the OIG’s Office of Inspec-
tions (OIG/ISP) and were limited to an examination of individual physical security
and emergency preparedness. These “limited-scope” inspections were aimed prima-
rily at identifying and correcting weaknesses in the mission’s ability to defend itself
against a large-scale vehicle bomb attack.

    “Full-scope” inspections, covering the full-range of a mission’s security program,
including emergency preparedness, physical, technical, procedural, information, and
personnel security, were conducted at six missions – Embassies Moscow,
Ulaanbaatar, Seoul, Canberra, Singapore, and Kuala Lumpur. One compliance
follow up review, examining the degree of a mission’s compliance with the recom-
mendations of a previous inspection, was conducted at Embassy The Hague.

   Twelve of the inspections were of U.S. missions within the Department’s Bureau
of African Affairs. Of the remainder, ten were from the Bureau of European and
Eurasian Affairs, five were from the Bureau of East Asian and Pacific Affairs, and
one was from the Bureau of Western Hemisphere Affairs.




Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2002   23
         Because these inspections focused largely on physical security and emergency
     preparedness, the majority of the inspection findings fell within these two categories.
     Of all the findings the most prevalent pertained to emergency preparedness. U.S.
     missions are required to review their Emergency Action Plans (EAPs), on an annual
     basis and to submit a fully revised plan every three to five years, depending on their
     designated terrorism and political threat category. The inspections determined that
     more than half of the missions had not conducted the required review and testing
     of their emergency procedures.

           The importance of these findings cannot be overstated. As noted by the survi-
     vors of the most recent large vehicle bomb attack against the U.S. consulate in
     Karachi, Pakistan, the lack of personnel injury was attributed to the instinctive
     response by staff as a result of frequent emergency procedure drills. The deficiencies
     noted in all emergency procedure programs are easily correctable, usually requiring
     little if any additional resources.

         In the area of physical security, the most common deficiency was the lack of
     current technical and physical security surveys. These reviews are essential to ensur-
     ing the currency of the mission’s physical, technical and procedural defenses and play
     a critical role in the proper allocation of the Department’s security resources.

         In summary, the 28 inspection reports issued during this reporting period identi-
     fied recurring deficiencies at U.S. missions. Fortunately, these and many of the
     mission specific deficiencies are correctable with little additional funding.

         Because these reports discuss specific security vulnerabilities at the Department
     and its missions, synopses of these reports will be published as a separate classified
     annex to this report. A list of the classified reports issued during this semiannual
     period may be found in Appendix 2 of this report.




24   Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2002
                                 INSPECTIONS




Europe and Eurasian Affairs


Inspection of Embassy Bern, Switzerland
(ISP-I-02-36)

Switzerland has long played an important, though limited, role in U.S. foreign policy
interests. It actively supports international humanitarian and cultural work and has
protected U.S. assets and represented U.S. interests in countries like Iran. Although
sometimes U.S.-Swiss relations have been strained over issues like Holocaust com-
pensation, the bilateral relationship has remained healthy with significant shared
long-term interests in democracy and free-market economics. Economic and busi-
ness ties, particularly in foreign investment, have always been an important part of
the U.S-Swiss relationship. Switzerland is becoming more important to U.S. foreign
policy with the current war on terrorism and Switzerland’s move away from its
traditional neutrality in world affairs.

    The current size of the embassy is appropriate, and recent Department decisions
to increase support personnel should be reconsidered. One existing position should
be reallocated to operational diplomatic functions in Switzerland. The embassy
cannot adequately cover Switzerland’s most important city, Zurich, from Bern. A
more permanent American presence should be established in Zurich, even if it
means relocating existing personnel from Bern.

    Keeping residential streets around the embassy closed for security reasons can be
only a temporary measure. The Bern City Council wants to open the streets. A
reasonable effort should be made to relocate the chancery to a safer location when
feasible.




Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2002   25
         The embassy’s communications facilities are woefully inadequate, despite the best
     efforts of the embassy over a number of years to secure adequate resources. The
     Department needs to allocate resources to rectify the communications problems
     quickly.




     Inspection of Mission Geneva, Switzerland
     (ISP-I-02-38)

     The U.S. Mission in Geneva is a unique post, dealing with 175 United Nations (UN)
     and other international organizations and about 159 permanent delegations from
     other countries. Compartmentalization at the UN is mirrored in the mission. The
     mission represents the United States and supports the many U.S. delegations that
     come from Washington to participate in a wide range of conferences. The mission is
     also tasked with promoting reform of the UN system and working to recast the
     multilateral organizations dedicated to social, economic, and humanitarian work.
     The mission must do so in an environment marked by extensive political, economic,
     and ideological differences. Pulling it all together is a management challenge, which
     the current mission leadership is ably meeting.

          Cooperation between the mission and the two ambassador-led permanent
     delegations to the Conference on Disarmament (CD) and the World Trade Organi-
     zation (WTO), which are collocated in one chancery building, is the best that it has
     been in years, because of the collegial efforts of the three ambassadors. Nonethe-
     less, the Department has been seriously remiss in completing in a timely manner the
     chief of mission’s letter of authority for the U.S. Mission Ambassador.

         Geneva needs more space than the average overseas mission to accommodate
     the large number of temporary delegations that regularly visit Geneva. The recent
     unanticipated move into the chancery for security reasons of the United States Trade
     Representative (USTR) delegation has seriously reduced the space available. Even so,
     the USTR delegation now occupies space that is less than half the size of its previ-
     ous quarters. In addition, under current circumstances, the mission will not be able
     to support the increase in permanent and visiting delegations that is anticipated
     because of the Doha round trade negotiations or the possibility of renewed CD
     negotiations and other arms control activities. The mission and the Department
     need to move forward urgently with short and long-term ameliorative measures.




26   Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2002
    The administrative management of the mission is impressive. Resources have
been used effectively, the mission responds well to crises (such as the unanticipated
move by USTR), and the large majority of visiting delegates are satisfied with the
level of administrative support they receive. Some work needs to be done, however,
to meet the perceived needs of arms control delegations.

    Policy guidance from Washington for Mission Geneva is inconsistent. The
mission and the Department need to establish a clear process for providing guidance,
particularly for conferences that do not usually rise to national security priority levels.




Inspection of the U.S. Delegation to the
Conference on Disarmament, Geneva,
Switzerland (ISP-I-02-46)

The Conference on Disarmament (CD) has been at an impasse for about five years,
because of the failure of the members to agree on an agenda for future work. In
spite of the impasse, maintaining a permanent delegation is justified for the foresee-
able future by the need to remain in touch with other delegations, to reconfirm U.S.
support for multilateral forums, and to continue to press for recommencing negotia-
tions. The U.S. delegation to the CD has handled the challenges of the impasse well,
and made a number of administrative changes to reduce a waste of resources.

    The CD delegation and the U.S. Mission in Geneva, which are co-located in a
single chancery building, have gone through some difficult times, including adjusting
to the 1998-1999 integration of the Arms Control and Disarmament Agency into
the Department. Substantial progress has been made, but work remains to be done
in clarifying the administrative support structure and resolving lingering perceptions
of inadequate U.S. Mission support to visiting arms control delegations.

    With the unanticipated move into the chancery in October 2001 of the USTR
delegation to the World Trade Organization, there is now insufficient space to
support peak loads for visiting arms control delegations. This shortage will become
acute should the impasse within the Conference on Disarmament be broken. The
Department and the mission need to move ahead as quickly as possible with both
short- and long-term solutions to the space shortage problem.




Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2002   27
         The Ambassador to the Conference has traditionally had a mandate restricted
     primarily to the CD negotiations, and he has had little substantive interaction with
     other arms control delegations or discussions. The current ambassador, who is
     resident in Geneva, might usefully play a broader coordinating and facilitating role
     during and between negotiations.




     Inspection of Embassy Rome, Italy, and
     Constituent Posts (ISP-I-02-13)

     Embassy Rome is effectively managing the bilateral relationship with Italy. There is a
     broad range of high priority issues on the U.S.-Italian policy agenda, including the
     North Atlantic Treaty Organization, the European Union, the Balkans, and post-
     September 11 fall-out. The mission has performed well in handling the unprec-
     edented challenges emanating from September 11.

          The major ongoing resource and
     management issue that the embassy must
     address is the Via Sardegna Annex and the
     need to relocate the U.S. agencies located
     there promptly. The Department should
     not consider the sale of either the Naples
     or Florence Consulate General properties
     in the absence of a decision to close these
     missions. The embassy needs to pay
     greater attention to consular establishments             Embassy Rome, Italy
     in Italy and should review the adequacy of
     the current geographic distribution of the consulates general and consular agencies.
     The mission should also hold annual consular principal officers meetings and estab-
     lish a well defined framework for political and economic reporting from the consu-
     lates general.

          The public affairs section is stretched thin but is very well managed and provides
     outstanding support to the three U.S. missions in Rome. The consular section and
     the consulates are also providing a high level of customer service to U.S. citizens.
     The political and economic sections are turning out good reporting and are respond-
     ing well to post-September 11 taskings by Washington. The administrative opera-
     tions are responsive to the needs of the three U.S. missions in Rome. The adminis-
     trative staff provides good support for the many presidential and other high-level



28   Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2002
visits to Rome. Individual administrative unit performance is mixed. Financial
management is good, but there are serious space and personnel problems in the
information management unit. Administrative leadership should give more attention
to morale issues and the quality of staff apartments should be improved. Manage-
ment controls, with few exceptions, are in place. With the exceptions of property
disposal and inventory control procedures, embassy management has identified most
weaknesses in Rome and the consulates general.




Inspection of Embassy Tbilisi, Georgia
(ISP-I-02-45)

Embassy Tbilisi maintains an active bilateral dialogue with senior Georgian leaders,
up to and including the president. The embassy is the focal point for a wide array of
U.S. programs that promote Georgian national security, as well as political and
economic development. The cumulative value of those programs since Georgia’s
independence is over $1 billion.

    Increased assistance to Georgia has caused the embassy to triple in size since
1998 and to relocate many of its personnel to an annex a considerable distance from
the chancery. Rapid growth has generated a number of management challenges and
strained the embassy’s ability to provide adequate administrative support.

    The extended gap in the appointment of an ambassador and a succession of
weak administrative personnel in the past have contributed to management’s inability
to provide cohesive leadership and coordination among the many sections of the
embassy, resulting in low morale. The recently arrived administrative officer, with
considerable assistance from the Regional Support Center in Frankfurt, is increasing
the quality and quantity of services to the mission.

   The Department has purchased land for a new embassy complex. However, the
embassy has raised security problems associated with the site. The Department has
promised to resolve the problems, but has not specified when.

    Overly restrictive requirements for employees to receive the service needs differ-
ential have created the potential for unnecessary personnel turnover. Modifications
made by the Department in April are not sufficient to solve potential problems.




Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2002   29
     Inspection of Embassy Yerevan, Armenia
     (ISP-I-02-48)

     Embassy Yerevan continues to be a key link in U.S. efforts to promote economic and
     political reform in Armenia and regional stability throughout the Caucasus. Embassy
     management has succeeded in integrating all U.S. agencies into a coordinated effort
     to advance U.S. goals and objectives. It has also succeeded in welding together a
     close knit, well functioning mission community encompassing both American and
     FSN staff. Overall morale is high.

         Construction of a new embassy, scheduled for completion in 2004, will enhance
     security and should relieve overcrowding. Steps must be taken now to ensure that
     new embassy plans take into account projected significant growth in the number of
     personnel and that the U.S. Agency for International Development (USAID) will be
     able to move to the new facility on time.

         Embassy Yerevan’s consular antifraud program has had an impact on the consu-
     lar workload significantly by increasing the number of procedural callbacks the
     section must process, and lengthening processing time for visa cases generally. In
     addition, this program’s failure to conform to the Consular Management Handbook
     663 and 664 sharply increases the risk of employee malfeasance.

         As in Tbilisi, overly restrictive requirements for employees to receive the difficult
     to staff incentive differential have created the potential for excessive personnel
     turnover. Modifications made by the Department in April are not sufficient to
     resolve the potential problems.




     Inspection of Embassy Baku, Azerbaijan
     (ISP-I-02-34)

     Embassy Baku is doing a good job of articulating U.S. policy to the government of
     Azerbaijan, supporting peaceful resolution of the Nagorno-Karabakh conflict, and
     fostering regional economic development. The President’s recent waiver of Section
     907 of the Freedom Support Act means that U.S. programs in Azerbaijan will
     increase. Inevitable pressure for the embassy to take on more personnel as programs
     expand must be balanced against space limitations and the embassy’s ability to
     provide security and administrative support.


30   Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2002
    The Ambassador’s ability to direct and manage the increase in U.S. program
activity will be enhanced if all U.S. agencies located in Baku give their resident
representatives full authority to make decisions, in conjunction with the Ambassador,
on local programs.

    The Department’s inability to provide officers with the requisite experience to fill
jobs at Embassy Baku is the biggest single management problem that the embassy
faces.

    Overly restrictive requirements for employees to receive the service needs differ-
ential have created the potential for unnecessary personnel turnover. Modifications
made by the Department in April are not sufficient to resolve the potential problems.

   Management controls are in place and functioning well, with some exceptions.
There is a serious vulnerability in the financial management of grants awarded by the
public affairs section. Obligations for small grants issued under the Freedom Sup-
port Act were mistakenly recorded, and the grants were not executed until the
subsequent fiscal year, constituting a possible administrative violation of the Anti-
Deficiency Act. In addition, the embassy needs to make payments by electronic
funds whenever possible.



Western Hemisphere Affairs


Inspection of Consulate General Curacao,
Netherlands Antilles (ISP-I-02-18)

Consulate General Curacao is a two-officer Special Embassy Program1 (SEP) consu-
late general burdened with a heavy workload, but operating with only limited re-
sources. After nearly being closed in 1998, the consulate general is suddenly over-
whelmed by national security, law enforcement, citizen services, and other consular
requirements in a district covering six islands and extending more than 500 miles.

1
 The Special Embassy Program was designed to preclude growth at missions abroad where U.S. interests are
limited, permit missions with limited resources to concentrate on essential objectives by relieving them of
lower priority, Washington-imposed work requirements, and simplify or streamline operations so that
missions can operate more effectively and efficiently. Embassies are automatically included in the program
when U.S. citizen direct-hire positions are 30 or fewer for all agencies or 15 or fewer direct-hire Department
positions. Embassies lose their membership when they reach 35 direct-hire positions.




Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2002                     31
     The new consul general has support responsibilities for, and chief-of-mission author-
     ity over, contingents from three federal agencies operating in Aruba, as well as a
     small Drug Enforcement Agency office in Curacao. The mission’s efforts will be
     better focused on its highest priorities after it prepares mission performance, repre-
     sentation, and travel plans.

         Providing consular services to well over one million American tourists and
     residents is the key consulate function. Effective performance is hindered by the
     distant locations of the six islands comprising the consular district, the lack of an
     experienced and well trained staff, and the fact that Aruba, another island apart from
     Curacao, has the heaviest consular workload. A consular agency was recommended
     for Aruba.

         A $5.8 million security construction project now underway at the consulate
     general requires more on site oversight by the Bureau of Overseas Building Opera-
     tions to ensure that the work is done properly and in conformity with the contract.
     The first-tour consular/administrative officer, designated as the contracting officer’s
     representative, lacks both construction and contract management expertise. Addi-
     tionally, the international cooperative administrative support system exists only on
     paper in Curacao, a problem that must be remedied.




     Inspection of Consulate General Hamilton,
     Bermuda (ISP-I-02-39)

     Operations at Consulate General Hamilton are focused on supporting airport
     preclearance procedures that facilitate American tourist travel, providing services to
     American citizens, resolving environmental issues that were left after the closing of
     the U.S. military and National Aeronautics and Space Administration bases, and
     encouraging the government of Bermuda to control money laundering. The consu-
     late general is doing a good job of looking after these interests.

         Relations between the United States and the self-governing United Kingdom
     Overseas Territory of Bermuda are good. The narrowly based Bermudan economy
     is heavily dependent on American tourism and offshore business operations that
     either represent U.S. companies or target U.S. markets.

         Support and responsibility for Consulate General Hamilton are not centralized
     within the Department. Since Bermuda is an overseas territory of the United
     Kingdom, it is reasonable that the consulate general fall under the auspices of

32   Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2002
Embassy London. The $2 million security construction project now underway
requires more oversight by the Bureau of Overseas Building Operations to ensure
that the work is done properly and in conformity with the contract.



African Affairs


Compliance Follow Up Review of the
Inspection of Dakar, Senegal (ISP-C-02-28)

OIG found that Embassy Dakar largely complied with recommendations made
during the 2000 inspection. Notwithstanding significant staff turnover, 44 of the
original 54 formal recommendations had been closed since the inspection. The
embassy and OIG closed nine additional recommendations during the compliance
review. One recommendation was revised and reissued. That recommendation
involved the need for the Department to translate diplomatic notes and other docu-
ments for use at U.S. embassies throughout French-speaking Africa centrally. OIG
made no additional formal recommendations. Many of the original recommenda-
tions related to issues in human resource management, procurement activity, man-
agement controls, and revising and better targeting the embassy’s Mission Perfor-
mance Plan. Embassy Dakar and the Department successfully resolved these issues.
Embassy Dakar supports several other embassies in the region and memoranda of
understanding governing these relationships have been concluded. The embassy
identified and documented activity used in its surrogate role for the former embassy
in Guinea-Bissau.




Inspection of Embassy Abuja and Consulate
General Lagos (ISP-I-02-33)

Nigeria has been described as a “linchpin” of U.S. African policy. The United States
depends on Nigeria for oil imports, support in the fight against terrorism, assistance
in promoting regional stability, and as a major market with growth potential for U.S.
exporters. The Ambassador and his country team have a clear understanding of U.S.




Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2002   33
     interests in Nigeria and have had success in advancing that agenda. He and the
     deputy chief of mission have effective, ready access to the highest levels of the
     Nigerian government.

         The major problem for the U.S. mission to Nigeria is staffing shortfalls in Abuja
     and Lagos, particularly the inability to fill midlevel positions. This same key judg-
     ment was cited in OIG’s last two inspection reports, issued in 1993 and 1997. There
     can be no real progress on other vital issues as long as the mission has long staffing
     gaps, relying on makeshift arrangements of junior officers, temporary duty retirees,
     Civil Service employees on excursion tours, and contract employees to fill key
     positions. Consular operations, almost entirely based in Lagos, need additional
     staffing. CA has begun to address this situation by providing additional temporary
     duty staff.

         There remain some problems arising from the transfer of the embassy from
     Lagos to Abuja in 1999. Embassy Abuja consists of three small residential buildings
     in a single compound. It lacks the space and administrative support necessary for
     the growing demands placed on it as the Department and other U.S. government
     agencies locate more staff in Abuja. There are plans to build a new embassy in
     Abuja, but groundbreaking has been postponed twice, and it is unclear when the
     project will begin. The new embassy will likely not be completed for several years,
     and its proposed size may be inadequate for projected staffing increases. Further, the
     transfer of the embassy has resulted in some confusion over lines of authority within
     the mission and disagreements over resource allocation. This situation has contrib-
     uted to inefficient operations, weaknesses in management controls, misunderstand-
     ings, and low morale, and it should be a priority for mission management to resolve.




     Inspection of Embassy Bangui, Central
     African Republic (ISP-I-02-35)

     Embassy Bangui operates in a difficult environment of extreme isolation, constant
     health hazards, and a chronically dangerous security situation. Political and social
     unrest caused the suspension of embassy operations for over a year in 1997-98;
     another violent revolution and army mutiny in May 2001 again threatened stability in
     the country. The shaky security situation caused the Peace Corps and USAID to
     close their offices, thereby reducing the U.S. presence and assistance levels in this
     desperately poor nation. This vacuum, along with a reduction in the French military
     presence, has been filled by Libya, whose troops are a major source of support for
     the regime.


34   Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2002
    Nevertheless, this small embassy and its energetic ambassador are actively pursu-
ing limited U.S. interests. The consular section is mindful of its need to protect the
over 300 American citizens resident in the Central African Republic and is well
organized to meet future emergencies. The section’s work in uncovering a visa fraud
scheme involving Yemeni nationals is also commendable.

    Diplomatic readiness, while more than adequate within the embassy itself,
suffered from deficiencies in regional support in areas such as health care, financial
management, and personnel.

    Embassy Bangui’s reporting of local events has been good, but it should include
more coverage of the substantial Libyan presence and Libya’s policies toward the
country and the region. The embassy also needs to track more carefully the use and
effectiveness of projects in the Central African Republic that are funded by the
Bureau of Population, Refugees, and Migration.

    The Department needs to decide whether Embassy Bangui remains viable,
balancing the advantages of maintaining a presence in the Central African Republic
and the protection of resident Americans against the personal security and health
hazards for embassy personnel, the limited influence of our democratization and
other progress on the current regime, and the expense of funding an embassy with
so few remaining U.S. programs.




Inspection of Embassy Cotonou, Benin
(ISP-I-02-37)

The Ambassador is an energetic representative who has raised the profile of the U.S.
Embassy in Benin. She and her country team have a Mission Performance Plan that
clearly details U.S. interests and contains appropriate strategies to advance them.
Moreover, the Ambassador has ready access to the highest levels of the Benin
government.

    Embassy Cotonou illustrates the high costs of maintaining a small embassy in a
country with limited strategic interest for the United States. The embassy has grown
briskly, doubling in size over the last ten years. Although it is under the Special
Embassy Program (SEP) in a benign, low-threat environment, it requires all of the
security, communications, and administrative infrastructure associated with larger
embassies.




Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2002   35
         Embassy management and the Department should ensure that programs, report-
     ing, and other activities are commensurate with the resources and spirit of the SEP
     concept, i.e., not taking on extra activities or Department “taskers” not meant for
     SEP embassies.

         The Bureau of African Affairs (AF) and the embassy need to engage in a regular
     dialogue about reporting requirements. Feedback from AF would focus reporting
     and increase its utility to Washington policymakers.

         The arrival of the two rotational junior officers in January 2003 should create
     optimum staffing. Converting the current consular/political/commercial junior
     officer position into a rotational position will lessen the likelihood of one key activity
     being slighted for another, while reducing overtime.

         Rapid growth and the need for enhanced security have exceeded the capacity of
     embassy facilities. The embassy buildings were not designed for the uses being made
     of them and do not lend themselves to improvement. Most of them are in various
     stages of renovation and upgrade. The upgrades have caused some damage and had
     unintended consequences, and the electrical system is dangerously overloaded.

         The embassy’s public diplomacy programs and activities are closely aligned to the
     Mission Performance Plan goals and objectives. OIG commends the work of the
     public diplomacy local staff, who, in the absence of a permanent public affairs
     officer, have carried out successful programs to meet key American policy objectives.
     The Ambassador’s active participation in public diplomacy programs is praiseworthy.




     Inspection of Embassy Kinshasa, Democratic
     Republic of the Congo (ISP-I-02-40)

     As a large country with strategic and economic potential, multiple conflicts, and
     many domestic and foreign opponents, the Democratic Republic of the Congo
     commands significant U.S. government attention. However, in recent years policy
     implementation has been inhibited by repeated evacuations, and by tensions in the
     bilateral relationship. Now, taking advantage of the more favorable attitudes of the
     new government, Embassy Kinshasa has established a constructive foundation for a
     highly focused pursuit of its well articulated policy goals. The mission is well run,
     and its leadership is popular. Despite the depressing physical environment and
     discouraging operational one, morale is good and the degree of collegiality is
     exceptional.


36   Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2002
    As the Congolese situation develops, demands on the embassy will grow. A few
new resources are being added, but there is still a need for an additional political
officer and for improved connectivity with the consular section. Embassy manage-
ment gives its full support to the security program.

    Though no longer one of the largest U.S. diplomatic missions, Embassy
Kinshasa continues to be responsible for substantial U.S.-government-owned real
estate. Three of these properties should be disposed of, and the second position in
the facilities maintenance section should be eliminated. The inspection also found
significant management controls vulnerabilities.




Inspection of Embassy Luanda, Angola
(ISP-I-02-41)

Relations between the United States and Angola suffer from lingering antagonism.
As the United States searches for energy alternatives, Angola’s resources are being
noted. Embassy Luanda’s reports are read with interest by people in a variety of
offices within the Department and other U.S. agencies. Readers applaud the in-
creased credibility of reporting under the present leadership. However, until the
Ambassador succeeds in building team spirit, the embassy will continue to operate
less than optimally. The Department bears considerable responsibility for the
demoralizing conditions, particularly with regard to the physical plant. Using trailers,
mobile homes, and prefabricated buildings, both the chancery and the annex have
deteriorated steadily since Embassy Luanda was established in 1991. OIG found the
combined chancery–new construction site to be dangerous. In response to OIG’s
findings, the Department dispatched the construction branch chief and the area
manager to Luanda to find ways to correct the identified problems and compelled
the contractor to assign an American safety supervisor to the construction site. OIG
supports these actions, but is still concerned. When the repair and renovation is
complete, the embassy’s annex will remain unsafe, excessively expensive, and ineffi-
cient. The decision to continue leasing space at the annex for a sum of approxi-
mately $1,007,000 is questionable.

    There is considerable dissatisfaction with administrative services, attributable to
communications and computer systems disruptions and power interruptions. Gen-
eral services have improved, but there is still no effective procurement function.
Also, greater attention to the management of FSNs is needed.


Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2002   37
         The systems administrator is responsible for unclassified operations at the
     Miramar compound and Casa Inglesa. This workload which requires supporting
     about 50 workstations is enormous. Currently, there is no dedicated computer
     systems support for Casa Inglesa; consequently, long gaps in communications and
     breakdowns in systems operations occur frequently.




     Inspection of Embassy Niamey, Niger
     (ISP-I-02-42)

     U.S. relations with Niger have improved rapidly since the current government was
     elected democratically in 1999. Both the embassy and the Bureau of African Affairs
     (AF) regard Niger as an island of stability and reform in a volatile region. Neverthe-
     less, Embassy Niamey’s desire to take an activist role that supports and reflects this
     outlook is limited by the scarcity of resources and the lack of a USAID presence.

         An effective ambassador, her deputy chief of mission, and a strong team of
     colleagues maintain good personal relations with their counterparts at all levels of
     the host government.

          Political and economic reports are well written and well focused. Reporting
     is further improved by the Ambassador’s practice of including key FSNs in a weekly
     meeting with reporting officers. Since these employees have many important con-
     tacts, these meetings contribute significantly to the embassy’s understanding of local
     developments.

          The embassy’s public diplomacy program is in regular contact with Niger’s media
     and has close relations with regional cultural entities and performers, an important
     achievement in a country where strong ethnic and regional differences can be politi-
     cally worrisome. The public diplomacy section presents vibrant programs in Niamey
     and other towns that present the United States very well in a nation where American
     culture, ideals, and policies are largely unknown.

         The embassy works closely and cooperatively with the Peace Corps, whose more
     than 100 volunteers work on food security and health/nutrition programs and
     routinely address HIV/AIDS-related issues.




38   Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2002
     In 1998 USAID closed its mission in Niamey, transferring its responsibilities to
its regional office in Bamako, Mali. To fill this gap, the Ambassador has used mission
funds to create a development assistance office to oversee embassy and USAID
projects. The development assistance coordinator aggressively pursues new sources
of funding for worthy projects, especially those related to HIV/AIDS.

    The embassy has asked that USAID help support the development assistance
office, either by assigning a direct-hire American USAID employee to Niger or
funding the current development assistance office. In the absence of a formal
response to these requests, AF needs to raise this matter formally with USAID.

    Although the embassy’s administrative section is highly effective, Niamey’s 1997
inspection report recommended that Embassy Niamey’s general services offices and
warehouse be relocated to the embassy compound. This has not been done. The
current warehouse is still several miles away from the chancery, and there is space on
the compound for it. Savings each year of approximately $17,000 in leasing costs
and $10,000 in guard costs, along with reduced wear and tear on vehicles and re-
duced personnel travel time would quickly pay for the cost of an on-compound
warehouse. Embassy Niamey should submit its plans for moving the warehouse to
the chancery compound as soon as possible.




Inspection of Embassy Ouagadougou,
Burkina Faso (ISP-I-02-43)

U.S. relations with Burkina Faso, one of the world’s poorest nations, are correct but
strained by the government’s involvement in clandestine arms and diamond trading
that support rebel movements in the region. Burkina Faso’s regime has also aided
coup plotters in Cote d’Ivoire. Police violence, including extra-judicial killings, is also
on the rise.

    The ambassador maintains a strong network of personal relationships that
includes the highest levels of the government and uses this top level access to press
the government to end smuggling and other support for destabilizing elements in the
region and to increase democratization at home.




Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2002   39
         However, the ability to carry out U.S. goals in Burkina Faso is constrained by the
     modest resources allocated to the embassy. The absence of a USAID mission
     further constrains the embassy’s ability to influence U.S. programs in important
     policy areas. Relations with the Peace Corps, the only other U.S. government agency
     in Ouagadougou, are close and cooperative.

         The embassy’s political reporting is impressive; however, Embassy Ouagadougou
     needs to establish an economic reporting program. The embassy provides virtually
     no coverage of Burkina Faso’s internal economy, whose acute difficulties have
     brought it under the tutelage of the International Monetary Fund and the World
     Bank. The current Mission Performance Plan does not establish any economic
     reporting goals or targets.

         Even though about 300 U.S. citizens live in Burkina Faso and the country’s
     political stability is chronically shaky, Embassy Ouagadougou’s current Mission
     Performance Plan does not address enhancing American citizens services and other
     consular goals and objectives.

           Communications between the
     embassy’s front office and its public
     diplomacy section are spotty, in part
     because the public affairs section
     still resists full integration into the
     embassy. Embassy Ouagadougou’s
     public diplomacy offices are located
     across a busy street from the
     embassy compound, but, inexplica-
     bly, not within the embassy’s newly
     built security perimeter. Both for
     security reasons and better integra-
     tion of the public affairs program           American Language Center, Embassy Ouagadougou

     into the embassy, relocation of the
     public affairs officer and his staff to the compound should be a priority. Partly
     because of duplicated administrative responsibilities between the public affairs
     section and the embassy’s administrative section, Ouagadougou’s public diplomacy
     local staff is excessively large. The American Language Center, one of
     Ouagadougou’s few English language teaching facilities, is located in a dilapidated
     building about 15 minutes from the chancery.




40   Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2002
Inspection of Embassy Windhoek, Namibia
(ISP-I-02-47)

Modern, democratic, and prosperous, Namibia faces national elections in 2004 that
could determine whether the country stays this course or follows the regressive
pattern of its neighbor, Zimbabwe. Embassy Windhoek’s Mission Performance Plan
is too wide-ranging; the embassy needs to refocus its policy aims on a small number
of key objectives relevant to the coming elections.

    Embassy management is experienced, “people-oriented,” and popular, but the
rhythm of work is upset by the chancery’s partial evacuation for renovation. Despite
the debilitating disruptions of temporary workspace and growing crime, morale is
good, as are interagency relations. In a country with continuing racial tensions, the
embassy works hard to make itself a model of tolerance and opportunity. The
security program has embassy management’s full support and embassy-wide backing,
but the local guard force is underpaid and unhappy.

    The facilities maintenance manager is fully occupied by reconstruction of the
chancery and other serious problems in the embassy plant. He should be relieved of
regional responsibilities. Similarly, the proposal that added a regional information
specialist to meet Embassy
Windhoek’s extra needs has not
worked. The position should be
made a full-time, Windhoek-based
one.




                                                  Construction site, Embassy Windhoek




Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2002   41
     Domestic Bureaus


     Inspection of the Bureau of Legislative Affairs
     (ISP-I-02-53)

     With the strong encouragement and support of the Secretary, H is actively promot-
     ing greater Department outreach to Capitol Hill. This new approach has won
     considerable support both within the Department and on the Hill.

         Reorganization within H by the new Assistant Secretary has helped raise its
     profile on the Hill, but has led to some uncertainty within the bureau about job
     responsibilities, including overlapping responsibilities among legislative management
     officers.

         The three legislative operations units, which handle correspondence, travel, and
     interagency clearances, are striving to increase their efficiency and customer service
     orientation. A new Department office in the Rayburn House Office Building,
     staffed by personnel from H and CA, has added an innovative dimension to Depart-
     ment outreach.

         While all bureaus within the Department welcome the changes in H, some add
     that clearance procedures within H should be streamlined. Some personnel in H
     echoed this view. The bureau has taken clear steps to address the concerns.




     Inspection of the Bureau of Public Affairs
     (ISP-I-02-44)

     The Bureau of Public Affairs (PA) continues to carry out with commendable profes-
     sionalism its central role in explaining U.S. foreign policy to the American public,
     while taking on extensive new responsibilities as a result of the consolidation of the
     Department and U.S. Information Agency. The Assistant Secretary for Public
     Affairs performs his role as Department Spokesman with distinction. One person
     cannot, however, respond to the daily imperatives of the Spokesman’s role without




42   Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2002
seriously limiting his ability to direct the bureau’s other responsibilities. Accordingly,
the position of the Department Spokesman should be separated from that of the
Assistant Secretary for Public Affairs in the future.

    The inspection report made a number of suggestions for improving the opera-
tion of different PA offices:

•   The Office of Strategic Communication has a valuable contribution to make to
    the bureau and to its partner bureaus that report to the Under Secretary for
    Public Diplomacy and Public Affairs, but its work needs to be refocused on the
    strategic and the long-term, away from tactical, short-term projects.

•   The Department’s labor intensive but carefully choreographed daily press brief-
    ing is cogent, informative, and essential to the articulation and dissemination of
    the U.S. government’s foreign policy message. The daily flow of cleared policy
    information is also essential to accurate media coverage. However, the human
    costs of this effort are very high, and the bureau must attend to the serious
    attendant problem of employee dissatisfaction.

•   The USAID press office, attached by legislation to PA, is a key element in telling
    the story of U.S. humanitarian assistance and economic development, but lax
    oversight and ineffective support have prevented the office from fulfilling its
    mission. Staffing the USAID press office with qualified employees and support-
    ing its operation must be an urgent priority.

•   PA has developed an independent television broadcast capability for the Depart-
    ment, but its effectiveness is limited by lack of agreement about its proper role
    with IBB, upon which it depends for transmission assistance. The bureau
    needs to write a mission statement for its new American Embassy Television
    Network and reach agreement with IBB on the scope of its responsibilities in
    this area.

•   The dramatic recent growth in the bureau’s staff and budget—recognized in the
    elevation of the executive director position to senior level—has strained basic
    administrative functions and demands the full attention of the executive director
    and more attention from bureau leadership.

•   The proposed multimillion dollar U.S. Diplomacy Center project, currently a
    responsibility of PA, may be more than the bureau can manage, unless extremely
    careful planning and coordination take place on matters of construction, secu-
    rity, finance, personnel, and information management infrastructure. The inspec-
    tion report recommends that the Under Secretary for Management assist PA in
    determining the management structure for the proposed center.


Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2002   43
         OIG found no evidence that restrictions in the Smith-Mundt Act on mixing
     public diplomacy and public affairs have proved to be a serious obstacle to the
     bureau’s work. However, closer coordination between PA and other elements
     reporting to the Under Secretary for Public Diplomacy and Public Affairs is needed
     as PA takes on new programs aimed at foreign audiences in addition to its primary
     job of reaching the American public.

         The Historian’s office has been reenergized under new leadership, but needs to
     finalize its reorganization, put a uniform set of standards in place to guide its staff in
     the compilation of the Foreign Relations of the United States (FRUS) series, and resolve
     disagreements between the Department and intelligence agencies over the inclusion
     of certain materials in the FRUS series.




     Inspection of the Bureau of African Affairs
     (ISP-I-02-52)

     AF is generally well managed and morale is good. The bureau’s desk officers are
     engaged in more challenging work and have more autonomy than is customary for
     officers at their grade levels. Post management officers are handling large workloads.
     Public diplomacy has not been fully integrated with policy development. Public
     diplomacy efforts are complicated by the lines of authority that exist between bu-
     reaus and the Office of the Under Secretary for Public Diplomacy and Public
     Affairs.

         Staffing shortages overseas and domestically, particularly at midlevel grades, (not
     unique to AF) is the bureau’s most serious administrative problem. The bureau gets
     high marks from the missions it supports; however, there are issues of concern in the
     executive office.

         Differences with the Department of Defense have been resolved, and there are
     no outstanding policy disagreements with the National Security Council. New
     arrangements for policy oversight and management have revitalized the Africa Crisis
     Response Initiative.2 Interagency infighting that reduced effectiveness has ended.
     Peacekeeping training provided to African militaries through this program makes a
     valuable, but limited, contribution to the ability of the United States to deal with
     conflicts in Africa.
     2
       A program designed to train African soldiers for peacekeeping operations. Training was
     conducted in eight African nations. At the beginning of 2002, it was decided to replace ACRI
     with a new program called African Contigency Operations and Training Assistance (ACOTA).
     This program will not aim at the lightly armed “peacekeeping” envisioned under Chapter VI of
     the UN Charter, but at a stronger combat-oriented “peace enforcement” under the aegis of a
     regional organization or a “coalition of the willing.”


44   Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2002
    The bureau focuses on distributing Economic Support Funds in support of
foreign policy priorities but relies on USAID to manage individual projects. Program
oversight is improving as the bureau gives country desk officers more responsibility.
By agreeing to fund the initial costs of obtaining sovereign credit ratings for a
number of African countries, under the Assistant Secretary’s leadership, the bureau
has taken an innovative and aggressive role in Africa.

                                   Best Practices
   Bureau of Public Affairs – Best Practice: Home Town Diplomats

   The bureau created an effective Home Town Diplomats Program by changing a
   key component in an old and less successful program. Instead of financial induce-
   ments, the bureau offers individual recognition by the Secretary. As a result, the
   bureau’s ability to send speakers into smaller towns and cities has increased at
   very little cost. The program has received an enthusiastic public response.

   U.S. Mission Geneva, Switzerland - Best Practice: Using EFT to Pay Living
   Quarters Allowances

   Mission Geneva pays living quarters allowances monthly in Swiss francs via
   electronic funds transfer (EFT) to each participating employee’s local checking
   account. The employees can then pay their rent and utility bills using online
   payments.

         If Mission Geneva were less proactive, it would be following the older guid-
   ance of 4FAH-3 H-535.3, dated June 1995, which states, “living quarters, post and
   separate maintenance allowances are paid on the biweekly payroll.” Under that
   system, living quarters allowances would be paid in U.S. dollars to employees’
   U.S. banks. The employees would write personal checks on their U.S. accounts to
   the U.S. Treasury and receive cash in Swiss francs from the mission cashier to pay
   for rent and utilities. To cover all eligible employees, the cashier would have to
   have on hand the equivalent of $210,000 in Swiss franc notes every month. The
   actual payment of the rent and utility bills would entail a trip to a local bank or post
   office, during work hours, by each employee. This increases time away from the
   office, increases employee exposure to crime and thwarts the intent of the Debt
   Collection Improvement Act to reduce both the cash holdings and cash payments
   of the U.S. government.

        As additional benefits for both the employees and the Department, the annual
   reconciliation of rent and utility payments at Mission Geneva is facilitated because
   the reviewing staff compares “apples to apples,” and employees are kept whole
   regardless of exchange rate fluctuations during the year.

   Embassy Niamey, Niger – Best Practice: FSN Meeting with Ambassador

   The Ambassador holds a weekly meeting of the most senior members of the host
   country staff, some of whom are closely connected to members of the local gov-
   ernment. This practice gives the Ambassador a barometer of the ever changing
   opinions, policies, and actions of the host government.




Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2002   45
46   Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2002
                                      AUDITS




Regional Procurement Support Offices
(AUD/FM-02-39)

In light of the Department’s goal to expand regional support and reduce its overseas
presence, OIG evaluated the operations of the Regional Procurement Support
Offices (RPSOs). The offices provide support to missions using their services in
procuring goods and materials and processing the solicitation of bids and establish-
ment of contracts. OIG sought to determine whether these offices were properly
organized, located, managed, and funded and also to determine whether the Depart-
ment was properly accounting for operations and recovering full costs through
reimbursements to the Working Capital Fund, which is used for funding purposes.

    OIG found that RPSOs provide effective services that are highly rated by the
missions receiving them in several regions, including Europe and Africa. This
conclusion was based on the results of an OIG survey of virtually all missions
worldwide. However, some regions, including Eastern and Southern Asia, are not
provided sufficient service and are lacking in procurement support at the regional
level. Additionally, the findings showed that RPSOs provide only eight percent of
total overseas procurement.

     OIG concluded that RPSOs are not meeting their potential and would benefit
from planning that addresses current deficiencies in management and geographic
coverage, as well as changes in organizational structure to put all three current offices
under one organization and one manager. Recommendations were made to effect
these changes. In addition, funding is presently provided through the Department’s
Working Capital Fund, which is reimbursed through surcharges paid by missions
using RPSO’s services. A recommendation was made to assess this source of fund-
ing and determine whether alternate sources are better suited for the operation.
OIG also found significant examples of accounting anomalies that distorted finan-
cial operating results and hindered RPSO’s management in carrying out its functions.
Several recommendations were made to correct these deficiencies.



Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2002   47
     Review of the Department of State’s
     Monitoring of Contractor Performance
     (AUD/PPA-02-40)

     OIG reviewed the Department’s systems and procedures to monitor contractor
     performance. Specific objectives were to determine whether those Department
     officials with performance monitoring responsibilities followed federal and Depart-
     ment policies and procedures for monitoring contractor performance, ensured that
     contractor performance was in compliance with contract terms and conditions, and
     possessed the requisite training, technical expertise, and certification of qualifications
     to perform contractor performance monitoring. In addition to these objectives,
     OIG examined the Department’s mechanisms for tracking and communicating with
     persons responsible for monitoring contractor performance.

         OIG examined three domestic contracts, with a combined value of $54 million,
     to determine whether policies and procedures were adhered to and the terms and
     conditions of the contracts had been met. In addition, OIG administered a ques-
     tionnaire to Department officials worldwide who have served as contracting officer’s
     representatives (COR).

         In general, CORs responsible for the three contracts that were examined in detail
     followed policies and procedures related to contractor performance, ensured that
     contract terms and conditions were being met, and received appropriate training.
     However, OIG identified deficiencies in COR oversight that mirrored results from
     prior OIG contract audits. Also, OIG found that the Department lacked accurate
     records on who was serving as CORs and government technical monitors (GTM)
     assisting the CORs.

          In addition, a significant number of the questionnaire respondents (from ten
     percent to 20 percent or more in some instances) provided answers to OIG’s ques-
     tions that pointed to shortcomings. Some examples of shortcomings that appeared
     on either the contracts examined or the questionnaire responses included invoices
     that were not processed in a timely manner, resulting in late payment interest penal-
     ties and the loss of available discounts; contract ceilings that were exceeded; deduc-
     tion tables that were not used, but could have compensated the Department for
     services that were not rendered; a large number of CORs who were performing their
     duties part-time; and COR duties redelegated to GTMs who had not been properly
     appointed.




48   Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2002
     Because of the persistent nature of these and other shortcomings, OIG believes
that the Department should oversee contractor performance monitoring more
vigorously. The Department’s Bureau of Administration (A) is moving in this
direction by establishing a new division to oversee contractor performance monitor-
ing. OBO has also instituted a best practice by implementing a training program for
all of its personnel with COR duties. OIG believes that additional steps are war-
ranted. The Department needs to maintain records on personnel with performance
monitoring responsibilities and monitor their training qualifications, establish an
intranet site for posting guidance and information pertinent to CORs and GTMs,
and notify the executive officers of all bureaus and diplomatic missions of the need
for CORs and GTMs to comply with Department guidance.




Review of Lockerbie Trial Costs
(AUD/CG-02-43)

At the request of the Department, OIG reviewed the costs incurred in conducting
the trial of the two Libyans accused of blowing up Pan Am flight 103 over
Lockerbie, Scotland. In September 1999, the Department, based on an informal
agreement to fund half the appropriate incremental costs of conducting the trial in
the Netherlands rather than Scotland, awarded a grant to the United Kingdom of
Great Britain (UK) to fund a portion of trial costs. OIG reviewed data related to
conducting the trial from April 1999 through March 30, 2002. OIG’s review verified
the total costs of conducting the trial, and determined the appropriate incremental
costs of conducting the trial in the Netherlands rather than in Scotland.




Follow Up Review of Iraqi National Congress
Support Foundation (AUD/CG-02-44)

At the request of the Department’s Bureau of Near Eastern Affairs (NEA), OIG
conducted a follow up review related to recommendations in OIG’s “Review of
Awards to Iraqi National Congress Support Foundation” (Report Number
01-FMA-R-092, dated September 2001). Specifically, OIG reviewed corrective
actions taken by the INCSF and also examined costs incurred between June 1, 2001,




Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2002   49
     and March 31, 2002, to determine whether INCSF expended federal funds for the
     intended purpose of the agreements, and in accordance with applicable Federal laws
     and regulations. OIG found that INCSF:

     •   Had taken significant steps to implement OIG’s recommendations. OIG con-
         cluded that, based on INCSF’s level of compliance with previous recommenda-
         tions, the restriction of future funding recommended in the prior audit report is
         no longer necessary.

     •   Incurred questioned costs totaling $110,851 relating to instances of non-compli-
         ance with applicable laws and grant terms and conditions or other applicable
         regulations.

     •   Had strengthened some financial controls, but had been unable to establish
         effective financial management, in part, because the INCSF did not have a long-
         term agreement or a consolidated budget plan. Subsequent to OIG’s review, the
         Department provided an additional $900,000, and released $113,000 previously
         withheld, to cover unfunded liabilities. However, INCSF has operated
         without a grant agreement since June 1, 2002, and lacks funding to meet financial
         obligations incurred since that date.




     Foreign Service Retirement & Disability
     Fund, 2001, 2000, and 1999 Financial
     Statements (AUD/FM-02-19)

     An independent external contractor audited the Foreign Service Retirement and
     Disability Fund’s (FSRDF) Financial Statements for FY 2001 to report on whether
     the financial statements fairly present the financial position and the results of finan-
     cial operations in accordance with generally accepted accounting principles; deter-
     mine whether FSRDF has an internal control structure that provides reasonable
     assurance of achieving internal control objectives; and, determine whether FSRDF
     complied with applicable laws and regulations. FSRDF is a trust fund that provides
     pensions to retired and disabled members of the Foreign Service. For FY 2001,
     FSRDF reported assets of $11.3 billion and an actuarial unfunded pension liability
     of $424.8 million. The external auditor issued an unqualified opinion.




50   Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2002
International Boundary and Water
Commission Financial Statements for
FY 2001 (AUD/FM-02-25)

Under OIG’s direction, an independent external auditor audited the International
Boundary and Water Commission’s U.S. Section (USIBWC), Financial Statements as
of September 30, 2001, in order to report on whether the financial statements fairly
present the financial position and the results of financial operations in accordance
with generally accepted accounting principles, to determine whether USIBWC has an
internal control structure that provides reasonable assurance of achieving internal
control objectives, and to determine whether USIBWC complied with applicable
laws and regulations. USIBWC is charged by a series of treaties between the govern-
ments of the United States and Mexico with the application, regulation, and exercise
of the provisions of such agreements for the solution of water and boundary prob-
lems along the United States and Mexico boundary. For FY 2001, USIBWC reported
assets of $282 million.

    OIG issued an unqualified opinion on the USIBWC Principal Financial State-
ments as of September 30, 2001. Although an unqualified opinion was issued, the
report brings to management’s attention internal control weaknesses relating to the
financial management system. The audit did not identify any instances of noncom-
pliance with laws and regulations that were considered necessary for disclosure.




International Cooperative Administrative
Support Services, 2000 & 1999 Financial
Statements (AUD/FM-02-26)

Under OIG’s direction, an independent external auditor audited the International
Cooperative Administrative Support Services’ (ICASS) 2000 and 1999 Financial
Statements to obtain reasonable assurance and express an opinion on whether the
financial statements fairly present, in all material respects, the financial position and
results of financial operations in conformity with generally accepted accounting
principles; determine whether ICASS had an internal control structure that provided
reasonable assurance of achieving internal control objectives; and determine whether
ICASS complied with applicable laws and regulations.



Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2002   51
         The external auditor issued an unqualified opinion on the ICASS 2000 and 1999
     Financial Statements. Although an unqualified opinion was issued, the report
     brought to management’s attention concerns about the security of the Department’s
     information system networks and the Paris Accounting and Disbursing System, the
     inadequacy of the Department’s financial and accounting system, and the inadequacy
     of the Department’s controls over undelivered orders.




     Department of State’s Foreign Service
     “Up-or-Out” System (AUD/PR-02-27)

     At the request of the Chairman of the Subcommittee on National Security, Veterans
     Affairs, and International Relations, House Committee on Government Reform,
     OIG reviewed the Department’s Foreign Service “up-or-out” promotion system.
     The Subcommittee was particularly interested in the system’s effectiveness, citing the
     retention and recruiting problems the Department has faced.




                          FY 1999-2001 Attrition Rates for Foreign Service Generalists

         The purpose of the Department’s up-or-out system is to ensure a predictable and
     orderly flow through the ranks and to provide promotion opportunities for the best
     officers at all levels. In competitions for promotion opportunities, the Department
     takes skills and experience into account in the annual reviews of documented perfor-



52   Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2002
mance, accomplishments, and potential. The current class system, mandated by the
Foreign Service Act of 1980, established a maximum number of years officers may
remain at a given class level before they are required to separate from the Depart-
ment. The Secretary has authority to change the time limits for the so-called “time-
in-class” rules.

     OIG found that the up-or-out system separated between 1.0 and 1.6 percent of
all Foreign Service generalist officers and 0.4 percent of Foreign Service specialist
officers during fiscal years 1999 and 2001.

     Based on the information reviewed, OIG believes that the system accomplished
its intended purpose. For example, about 87 percent of Foreign Service officers
separated during the period owing to the up-or-out system were senior or executive-
level officers. The majority of vacant Foreign Service positions or assignment gaps,
however, occurred below the senior level. OIG also found that at least one-quarter
of the officers retired under the up-or-out system during fiscal years 1999 and 2000
returned to the Department to work on a temporary or limited appointment within
one year.




Attestation Review of Annual Accounting of
Drug Control Funds (AUD/PR-02-28)

OIG has reviewed the Chief Financial Officer’s FY 2001 detailed accounting sub-
mission to the Director of the Office of National Drug Control Policy (ONDCP).
The Chief Financial Officer prepared the submission in compliance with ONDCP
Circular: Annual Accounting of Drug Control Funds, dated December 17, 1999. This
submission is the responsibility of the Department.

    OIG conducted its review in accordance with attestation standards established by
the American Institute of Certified Public Accountants as specified in section 6 of
the ONDCP circular. The scope of a review is substantially less than an examina-
tion, the objective of which is the expression of an opinion on the submission.
Accordingly, OIG does not express such an opinion. Based on OIG’s review of the
accounting submission, nothing came to its attention that caused OIG to believe that
the accompanying assertions do not, in all material respects, reliably represent the FY
2001 obligation data presented in the submission.




Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2002   53
     Review of Regional Financial Management
     System Test Documentation Standard
     (AUD/FM-02-30)

     The Bureau of Resource Management (RM) is replacing its financial management
     system in Charleston and Bangkok with RFMS. RM asked OIG to review the RFMS
     Test Documentation Standard to determine whether the procedures for document-
     ing future RFMS tests were adequate. OIG found that the standard was generally
     adequate for future RFMS tests and provided adequate accountability. The standard
     will also be useful in keeping the test documentation consistent throughout all test
     phases in the RFMS life cycle. OIG advised RM to clarify a section of the Test
     Documentation Standard to require written approval before any test results can be
     destroyed.




     Review of The Bridge Fund (AUD/PR-02-31)

     The Bridge Fund was established in 1996 to help Tibetan communities in China
     preserve their cultural traditions, promote sustainable development, and conserve the
     environment. In February 2002, the U.S. Ambassador to Beijing asked OIG to
     conduct a review of The Bridge Fund to ensure that U.S. funds were being effec-
     tively used. The Special Coordinator for Tibetan Issues endorsed this review.

         The Department grants officer’s technical representative, responding to concerns
     raised by Embassy Beijing, verbally notified The Bridge Fund’s executive director in
     February 2002 that the remaining $348,000 from a September 2001 grant would be
     suspended while OIG conducted its review. OIG found procedural shortcomings in
     the Department’s suspension of funds. Provision XXIX of the grant agreement
     requires that, before suspending funds, the Department must first inform the grantee
     by letter of the nature of the problem and that failure to correct the deficiency may
     result in suspension or termination.

         OIG found that the concerns noted in Embassy Beijing’s request generally
     related to problems that arose during the first grant period, specifically during a June
     2001 visit to the projects by officials from the Chengdu Consulate. Bridge Fund




54   Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2002
officials stated that, although the embassy raised some valid concerns, some of the
difficulties observed at the local level were attributed to the delay in the
Department’s funding of the first grant; therefore, not all of the projects had re-
ceived funding when the Chengdu Consulate officials conducted their visit. In
addition, Bridge Fund officials had suspended funding for one of its reforestation
projects because they were disappointed with the progress made at the local level.

    In response to concerns raised by Embassy Beijing, The Bridge Fund submitted
a 17-page memorandum to the Department on February 19, 2002, that described
what The Bridge Fund was doing to improve its operations and programs, including
hiring and training additional staff and conducting project audits and reviews. Em-
bassy Beijing concerns provided The Bridge Fund with an opportunity to assess its
work critically and make improvements. On the basis of its review of the memoran-
dum and discussions with Fund officials, OIG believes that The Bridge Fund is
making a good faith effort to respond to the Department’s concerns. From the
memorandum, the Department could determine what, if any, additional actions The
Bridge Fund must take before awarding a new grant.

    OIG also found that an Office of Management and Budget A-133 audit of The
Bridge Fund, although required by the grant agreement, had not been conducted for
FY 2000. OIG helped arrange an audit by a certified public accounting firm. Ac-
cording to the firm, the financial statements presented fairly, in all material respects,
the financial position of The Bridge Fund and the result of its activities and its cash
flows for the period July 20, 2000, to September 26, 2001, in conformity with ac-
counting principles generally accepted in the United States. The Bridge Fund also
requested another CPA firm to audit the organizations responsible for disbursing the
funds within China. Those audits are to be completed shortly, and OIG will review
the results.

    As a result of OIG’s limited review, the grants officer released the suspended
funds to The Bridge Fund. OIG closed out the review without formal
recommendations.




Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2002   55
56   Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2002
                       INFORMATION TECHNOLOGY




Information Security Program Evaluation
Report (IT-A-02-06)

In response to the Government Information Security Reform Act (GISRA)3, OIG
performed an independent evaluation of the information security program and
practices of the Department. The objective of the review was to determine whether
the Department is effectively implementing key requirements of GISRA, including
those areas pertaining to overall information technology (IT) security management
and IT security risk management.

    OIG’s evaluation of the effectiveness of the Department’s information security
program found several key areas of security that still require management attention.
Specifically, OIG concluded that the Department has made slow progress in address-
ing information security weaknesses identified in OIG’s September 2001 GISRA
report. In response to the report, the Department developed a strategy to address a
key deficiency– the lack of certification and accreditation of its information systems.
However, the Department had not developed a timetable for certification and
accreditation of all systems, and as of August 2002, only five percent of its systems
had been certified and accredited. Further, according to OIG’s survey questionnaire,
although 72 percent of the Department’s 358 systems are reported to have security-
level determinations, only 15 percent are reported to have security plans.

    In addition, in FY 2002, OIG reported on information security vulnerabilities
through its reviews of key information management programs. For example, in its
February 2002 report on the Classified Connectivity Program (CCP), a project to
implement classified processing capability at overseas missions, OIG reported that




3
    Public Law 106-398, Div. A, Title X, Subtitle G.




Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2002   57
     the Department had not developed a definitive strategy for managing the security
     risks of its CCP deployments. Specifically, OIG reported that the Department had
     not completed the steps needed to certify and accredit the classified Windows NT
     Local Area Network in accordance with federal requirements.

         Finally, at overseas missions, OIG found significant weaknesses in information
     security management. Specifically, OIG determined that the information systems
     security officers generally were not performing all of the requisite duties of the
     position. In addition, none of the 11 missions that OIG visited had developed
     information systems security plans. Further, OIG found deficiencies in manage-
     ment, technical, and operational controls, increasing the risk to mission operations.




     Consular Affairs Information Security
     Program (IT-A-02-04)

     Today’s changing technical environment requires that federal agencies adopt compre-
     hensive protection strategies for their IT resources. Because of increased risks to
     information integrity, availability, confidentiality and accountability in today’s envi-
     ronment, ensuring that security requirements are met in the Department’s visa and
     passport processes is essential to national security. CA has responsibility for issuing
     or refusing visas and passports for the entry of people to the United States.

         In response to public and congressional concern about the Department’s ability
     to manage and process consular activities safely, OIG conducted a review of CA’s
     information security program. Specific objectives of OIG’s review were to deter-
     mine whether CA’s information systems security program complies with statutory
     and regulatory guidance, and whether overseas missions, where CA systems operate,
     are following sound information security practices. As a result of its review, OIG’s
     memorandum provides information concerning the first objective. Issues related to
     the second objective concern mission security management practices, which are not
     specific to CA. Since these latter issues have broader implications for the
     Department’s Chief Information Officer to address, OIG addressed them in its
     evaluation of the Department’s information security under the 2002 GISRA review.

         Specific to CA, OIG found that the consular systems division has developed a
     comprehensive approach to addressing information security risks. In accordance
     with GISRA, Clinger-Cohen (P.L. 104-106), and OMB Circular A-130, CA provides
     an overview of its approach to information security in its 1999 Modernized Systems
     Information Systems Security Plan. The plan establishes organizational authorities


58   Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2002
and responsibilities to ensure that specified security requirements are met in its
client-server environment, currently in production domestically and overseas. Also,
the consular systems division oversees the development and dissemination of poli-
cies and procedures, ensures the development and presentation of user and contrac-
tor awareness sessions, conducts both vulnerability and risk assessments, and inspects
and spot checks systems and desktops to confirm that consular sections are in
compliance with required security configurations.

    However, the consular systems division management acknowledged more needs
to be done and was actively planning, prioritizing and working toward bringing each
of their active systems fully in line with the information security statutes and Office
of Management and Budget guidance. At the time of OIG’s review, 70 percent of
CA systems had risk assessments and almost 50 percent of the CA systems were
operating with a security level determination and an overall security plan in place.
Also, OIG found that only two of CA’s 36 systems had been certified and accredited,
and two had been granted an interim authority to operate. As a result, CA managers
lack sufficient information concerning the extent to which their systems are pro-
tected against fraud, illegal practices, or mission failure.




Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2002   59
60   Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2002
                              INVESTIGATIONS




Immigration/Visa Fraud
OIG has been involved in a joint investigation with the U.S. Department of Labor,
Office of Racketeering and Fraud Investigations, Immigration and Naturalization
Service (INS), and Internal Revenue Service since May 2001, based upon informa-
tion that a Virginia immigration attorney and a Department personal services con-
tractor were involved in an immigrant visa fraud scheme. The investigation estab-
lished that the Department contractor, who was employed as a fire safety engineer,
had acted as middleman for the immigration attorney in approaching managers of
restaurants and other businesses in the Washington, DC area. He had also assisted
the immigration attorney in submitting hundreds of applications for labor certifica-
tion through the Virginia Employment Commission to the U.S. Department of
Labor. All of these applications were determined to be fraudulent. The investigat-
ing agents obtained additional evidence through interviews, surveillance, analysis of
financial records and other methods.

    On July 24, 2002, the investigating agents arrested the immigration attorney and
the Department contract employee based upon warrants for immigration fraud.
Search warrants were executed at the immigration attorney’s office and at the De-
partment contract employee’s residence, bank, and Department office space. The
agents seized more than $40,000 that the Department employee had in his posses-
sion at the time of his arrest. They also seized more than $900,000 in cash during
the search of his apartment and seized approximately $2.5 million from his bank
account. The Department employee’s personal services contract was terminated
after his arrest. On August 13, 2002, he pleaded guilty to five felony counts, includ-
ing immigration fraud, money laundering, extortion, labor certification fraud, and
conspiracy to commit labor certification fraud. He also agreed to cooperate with the
government. Charges against the immigration attorney were pending at the end of
this reporting period. (01-064)




Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2002   61
          OIG opened a joint investigation with INS in January 2001, based upon informa-
     tion that the owner of a Florida company was engaged in a fraudulent scheme
     involving immigrant health care workers. The investigation developed information
     that this person had submitted false documentation to INS Service Centers to seek
     approval of immigrant visa petitions and assignment of priority dates for foreign
     health care workers. He falsely stated on these petitions that his company would
     employ the health care workers. In fact, once INS had approved a petition, and a
     priority date had been set, the company owner sold the services of the foreign health
     care worker to a health care facility. Health care facilities paid him as much as
     $15,000 per worker for this. The company owner would then assist the health care
     facility in filing a new petition for the worker to transfer the approval and priority
     date to the health care facility.

         When interviewed during the investigation, the company owner admitted the
     fraudulent scheme. Under an agreement with the U.S. Attorney’s Office for the
     Middle District of Florida, he withdrew 211 petitions for health care workers that
     were pending final approval at Embassy Manila. By taking this action, which may
     cost him in excess of $3 million, he met the conditions set forth in his agreement
     with the U.S. Attorney’s Office, and thereby avoided prosecution. (01-027)



     Theft
     In May 2001, the Bureau of Human Resources, Office of Employee Relations (HR/
     ER) advised OIG that an internal review had disclosed significant suspicious post
     assignment travel charges (PAT) associated with the U.S. embassy in Lusaka, Zambia.
     HR/ER said that almost $2 million in suspect charges had been identified.

         OIG investigators reviewed records of payments from the Department to
     vendors in connection with PAT vouchers filed at Embassy Lusaka. This review, and
     subsequent investigative activity, determined that numerous payments had been
     made to bogus vendors that had provided no services to the embassy or the Depart-
     ment. Several of these bogus vendors were located in the United States, both in
     Connecticut and in the Washington, DC area. Others were located in the Republic
     of South Africa and in the United Kingdom.

        OIG investigators traveled to Embassy Lusaka and determined that a former
     FSN employee at the embassy had caused approximately $2.5 million to be sent to
     bank accounts associated with bogus vendors that had provided no services.




62   Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2002
    In March 2002, OIG agents executed an arrest warrant in Waterbury, Connecti-
cut on a Zambian national who had received some of these fraudulent payments.
Search warrants were also executed in both Connecticut and Virginia at residences
associated with the bank accounts.

    On June 25, 2002, the Zambian pleaded guilty in U.S. District Court, Washing-
ton, DC, to a felony charge of conspiracy to receiving stolen government money.
(01-059)



Identity Theft                          Types of Cases*
                                         Passport & Visa Fraud, 19%
OIG opened an investigation in
May 2002 based on information            Employee Misconduct, 31%
provided that a contract passport
processor at the Miami Passport          Miscellaneous Theft, 12%
Agency had been involved in
identity theft. The OIG investiga-       False Statements and Claims, 19%
tion determined that the employee
had used personal information            Contract & Procurement Fraud, 14%
from a passport applicant to
attempt to purchase a computer           All Other, 5%
using the passport applicant’s
name. As a result of this investiga-    0         10           20          30           40        50

tion, this contract employee and                  (*Reflects combined ongoing investigative
                                               activities for the Department of State and BBG.)
five other contract employees at
the Miami Passport Agency were
terminated from the contract.

    In June 2002, the former contract employee was charged with a felony violation
of identity theft. The former contract employee is awaiting trial on the charge in
U.S. District Court for the Southern District of Florida. (02-039)



Employee Misconduct
OIG received information from the Bureau of Information Resource Management
(IRM) indicating that a civil service computer operator had claimed to be working
for the Department when she was also being paid to work by a Department contrac-
tor. Record reviews established that she regularly left her Department work area two


Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2002           63
     hours prior to the end of her shift to report to work for the contractor, but claimed
     that she had worked her full shift at the Department. The employee admitted her
     conduct to OIG investigators. On July 3, 2002, OIG provided reports of investiga-
     tion to HR and to RM. On August 21, 2002, RM provided the employee with a
     notice of indebtedness in the amount of $3,289. On September 3, 2002, HR pro-
     vided the employee with a notice of proposed removal. (02-024)

         An OIG investigation determined that a senior Department official allowed the
     unauthorized use of an official embassy residence, misused an embassy vehicle to
     transport visiting friends, and created the appearance of impropriety by changing the
     characterization of a representational event on a voucher submitted for reimburse-
     ment. On July 29, 2002, HR notified the official that he was being suspended for ten
     days for his actions. (01-076)



     Misuse of a Government Vehicle
     An OIG investigation determined that two Foreign Service Officers (FSO) assigned
     at a U.S. embassy overseas altered an embassy vehicle for personal purposes. On
     May 3, 2002, RM notified each officer that he was being suspended for thirty days
     for personal use of a government vehicle. On July 23, 2002, HR initiated a collec-
     tion action against the two officers in the amount of $823, the cost of returning the
     government vehicle to its original condition. (00-094)



     Conflict of Interest
     An OIG investigation determined that a FSO assigned overseas engaged in a conflict
     of interest by appearing in and allowing his name and official title to be used in a
     newspaper advertisement for a local real estate company. In addition, the FSO also
     appeared in three TV commercials for which he was compensated. On May 22,
     2002, HR notified the officer that he was being suspended for five days for his
     actions. (00-086)




64   Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2002
Follow Up Actions
OIG opened an investigation in the summer of 2000, based upon information
provided by CA concerning financial irregularities at the Miami Passport Agency.
OIG investigators and auditors conducted record reviews that developed evidence
of criminal activities. In August 2000, two cashiers, one of whom was a supervisor,
admitted during interviews that they had taken money from passport fees. Shortly
after this, they were terminated. Additional OIG record reviews and analysis estab-
lished the extent of the thefts.

    In August 2001, both of these employees were indicted on a charge of conspir-
ing to embezzle over $850,000 between May 1997 and June 2000. On January 18,
2002, both defendants pleaded guilty to this charge in U.S. District Court. As part of
the statement submitted to the Court, they admitted that they had used the stolen
money to purchase vehicles, take vacations, and pay personal expenses. On May 20,
2002, one of these former employees was sentenced to 24 months’ imprisonment, to
be followed by three years of supervised probation. The other was sentenced to 21
months’ imprisonment, to be followed by three years of supervised probation. (See
OIG Semiannual Report, October 1, 2001 to March 31, 2002, p. 65) (00-088)

    OIG opened an investigation in September 2000, based upon information
developed in a proactive investigation that an immigration attorney in New York was
involved in the submission of multiple fraudulent applications to the Diversity
Immigrant Lottery (DV) Program. The New York office of INS was advised of this
information and agreed to participate in the investigation.

    Record reviews established that the immigration attorney had submitted multiple
DV applications on behalf of clients for several years, using slight variations in the
spelling of the name on each application. The reviews also established that a sub-
stantial number of the attorney’s clients had been selected as lottery winners.

    On August 20, 2001, the attorney was arrested on felony charges of visa fraud,
mail fraud, and conspiracy. A search warrant for his office was executed on the same
date. On April 5, 2002, the attorney pleaded guilty to a felony charge of visa fraud.
Sentencing was pending at the end of this reporting period. (See OIG Semiannual
Report, April 1, 2001 to September 30, 2001, p. 54) (00-095)




Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2002   65
     Geographic Distribution of Investigations*



                     Western Hemisphere – 9 cases, 19%

               Domestic                              Europe – 5 cases, 10%
               29 cases,
                 61%                                Near East              South Asia
                                                   2 cases, 4%             0 case, 0%
                                                                                             East Asia and
                                                                                                 Pacific
                                                           Africa                             2 cases, 4%
                                                          1 case,
                                Latin                       2%
                              America
                              0 cases,
                                 0%


                                               Boundary representations are
                                               not necessarily authoritative.

              (*Reflects combined ongoing investigative activities for the Department of State and BBG.)



         OIG opened a joint investigation with INS, the Internal Revenue Service, and
     the Social Security Administration’s Office of Inspector General, in August 1999,
     based upon information that a network of people was engaged in a scheme involving
     visa fraud, alien smuggling, and money laundering. This group, operating in several
     parts of the United States and in the Czech Republic, was engaged in a conspiracy to
     profit from the employment of unauthorized alien workers in the United States.

         The investigation determined that the group assisted foreign nationals in obtain-
     ing nonimmigrant visas from U.S. consulates by misrepresenting the true purpose of
     the travel and by providing fraudulent documentation in support of visa applications.
     Once in the United States, many of these foreign nationals were provided with
     counterfeit H1-B visas, which authorize employment. These fraudulent visas were
     then used to obtain social security cards and other identity documents.




66   Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2002
    Four Czech nationals, who had been living in the United States, entered guilty
pleas to felony charges in U.S. District Court in Norfolk, Virginia, in February 2000.
One of these people, who had pleaded guilty to conspiracy to launder monetary
instruments, was sentenced to 84 months’ incarceration and ordered to forfeit
$136,763 in seized assets. The other three people received lesser sentences.

   In April 2001, two Slovak nationals residing in Florida were arrested and subse-
quently pleaded guilty in Norfolk, Virginia to charges of knowingly employing ten or
more aliens. In September 2001, one of these persons was sentenced to seven
months’ imprisonment; in November 2001, the other was sentenced to nine months’
imprisonment.

    On July 25, 2001, two naturalized U.S. citizens residing in Florida were indicted
on felony charges related to this scheme. On February 8, 2002, one of these per-
sons pleaded guilty to conspiracy to launder monetary instruments. On May 14,
2002, he was sentenced to 87 months’ incarceration and fined $20,000. On Febru-
ary 28, 2002, after a jury trial, the other person was found guilty of conspiracy to
commit money laundering, knowingly employing ten or more unauthorized aliens,
and encouraging unauthorized aliens to enter and reside in the United States. On
May 20, 2002, he was sentenced to 60 months’ incarceration. (See OIG Semiannual
Report, October 1, 2001 to March 31, 2002, pp 68- 69, OIG Semiannual Report, April 1 to
September 30, 2001, pp. 58-59, and OIG Semiannual Report, October 1, 2000 to March 31,
2001, pp. 52-53) (99-072)

    As a result of a joint investigation with DS, on March 17, 2000, an FSO was
arrested in Chicago, Illinois, for selling United States visas while employed as a
consular officer at a U.S. embassy. At the time of his arrest, over $1.8 million in cash
and gold bars and other assets representing the proceeds of the visa sales were seized
from the officer. The arrest was the result of a lengthy joint undercover operation
conducted by agents from both OIG and DS. The officer subsequently resigned
from the Foreign Service.

    The officer entered into a plea agreement with the Department of Justice and on
June 14, 2002, was sentenced in U.S. District Court to 262 months (21.8 years)
imprisonment for selling United States visas. The officer and his spouse and parents
agreed to forfeit all of the seized property to the government. (See OIG Semi-Annual
Report, April 1, 2000, to September 30, 2000, p 30) (99-068)




Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2002   67
     Hotline
     The OIG Hotline, operated by the Office of Investigations, is a prompt, effective
     channel for employees and others to report incidents of fraud, waste, abuse, and
     mismanagement to the Inspector General. Below is a summary of all hotline activity,
     including phone calls, anonymous letters to OIG’s post office box, and e-mail.


                             Total allegations received                         171
                             Held for action within OIG                          17
                             Referred to other offices for action               128
                             Not substantiated – no action necessary             26




68   Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2002
     APPENDIX 1: INVESTIGATIVE ACTIVITIES1
      APPENDIX 1: INVESTIGATIVE ACTIVITIES1
Workload                                                  Total Judicial Actions                           25
Cases pending 3/31/02                            59
                                                          Criminal
New cases opened                                 17
                                                          Prosecutive referrals                              7
Cases closed                                     29
Cases pending 9/30/02                            47       Prosecutive declinations                           3
                                                          Prosecutive dismissals                             0
Preliminary inquiries pending 3/31/02            19       Acquittals                                         0
Prelim opened                                    32       Indictments2                                       8
Prelim closed                                    32       Convictions                                        2
Prelim converted to cases                         0       Sentencings                                        4
Preliminary inquiries pending 3/31/02            19
                                                            Time sentenced                         323 months
Total Administrative Actions                    33          Time probation                             6 years
                                                          Court-ordered fines                       $12,800.00
Admonishments                                     0       Court-ordered restitutions             $3,349,805.24
Counseling                                        0
Curtailment                                       0
                                                          Civil
Demotions                                         0
Reimbursements                                    4       Referrals                                         0
Reprimands                                        0       Declinations                                      0
Resignations                                      0       Complaints                                        1
Suspensions                                       4       Judgments                                         0
Terminations (Department employees)               3       Court-ordered fines                               0
Terminations (Contract employees)                 7       Recoveries                                        0
Administrative referrals                         15       Total judgments and recoveries                    0
PFCRA3 referrals                                  0
Savings                                           0




                        Administrative recoveries4     $ 13,877.63
                                            5
                        Judicial recoveries            $3,362,605.24
                        Total Investigative Recoveries $3,376,482.87

        1
          This appendix reflects investigative statistics for the Department of State only. Please
   see page 87 for investigative statistics related to BBG.
        2
          Indictments included formal criminal charges brought against a subject. The manner
   in which charges are brought varies from country to country.
        3
          Program Fraud and Civil Remedies Act.
        4
          Includes recoveries from administrative actions, such as reimbursements and savings.
        5
          Includes recoveries from judicial actions, including court-ordered fines and restitutions
   and civil judgments and recoveries.


        The statistics and narrative case descriptions of investigative activities appearing in this
    Semiannual Report to the Congress are the result of reports received from prosecutive and
    administrative authorities. The final actions may be changed at a later date by individual use of
    administrative and judicial appeals processes.




Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2002                     69
70   Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2002
                  APPENDIX 2: REPORTS ISSUED
                  APPENDIX 2: REPORTS ISSUED

Special Report
02-OIG-003         A Review of U.S. Policy Toward Venezuela, November 2001-April 2002             07/02

Office of Security and Intelligence Oversight
SIO-C-02-06        Embassy The Hague                                                              08/02
SIO-I-02-26        Embassy Valletta, Malta                                                        09/02
SIO-I-02-28        Embassy Praia, Cape Verde                                                      05/02
SIO-I-02-30        Embassy Moscow, Russia                                                         05/02
SIO-I-02-32        Embassy Seoul, Korea                                                           05/02
SIO-I-02-38        Embassy Banjui, Central African Republic                                       08/02
SIO-I-02-39        Embassy Yerevan, Armenia                                                       09/02
SIO-I-02-41        Embassy Baku, Azerbaijan                                                       09/02
SIO-I-02-43        Embassy Abuja, Nigeria and Consulate General Lagos                             09/02
SIO-I-02-44        Embassy Singapore, Singapore                                                   08/02
SIO-I-02-45        Embassy Luanda, Angola                                                         08/02
SIO-I-02-46        Embassy Windhoek, Namibia                                                      09/02
SIO-I-02-47        Embassy Niamey, Niger                                                          09/02
SIO-I-02-48        Embassy Ouagadougou, Burkina Faso                                              09/02
SIO-I-02-49        Embassy Kuala Lumpur, Malaysia                                                 09/02
SIO-I-02-50        Embassy Kinshasa, Democratic Republic of the Congo                             09/02
SIO-S-02-51        Maintenance, Repair, and Testing of Certified Shielded Enclosures Overseas     09/02
SIO-I-02-52        Embassy Canberra, Australia                                                    09/02
SIO-A-02-55        Review of Main State Security                                                  09/02
SIO-I-02-61        Embassy Dushanbe, Tajikistan                                                   08/02
SIO-I-02-64        Embassy Ashgabat, Turkmenistan                                                 09/02
SIO-I-02-65        Embassy Bishkek, Kyrgistan                                                     09/02
SIO-I-02-66        Embassy Tashkent, Uzbekistan                                                   09/02
SIO-I-02-60        Embassy Maputo, Mozambique

Office of Inspections (A - Annexes)
ISP-I-02-13        Embassy Rome, Italy, and Constituent Posts                                     04/02
ISP-I-02-17        Inspection of BBG Belize Transmitting Station                                  05/02
ISP-I-02-18        Consulate General Curacao, Netherlands Antilles                                05/02
ISP-I-02-28        Followup of Embassy Dakar, Senegal                                             07/02
ISP-I-02-28A       Security Annex of Embassy Dakar, Senegal                                       07/02
ISP-I-02-33        Embassy Abuja and Consulate General Lagos                                      09/02
ISP-I-02-34        Embassy Baku, Azerbaijan                                                       08/02
ISP-I-02-35        Embassy Bangui, Central African Republic                                       09/02
ISP-I-02-36        Embassy Bern, Switzerland                                                      09/02
ISP-I-02-36A       Security Annex to the Inspection of Embassy Bern, Switzerland                  09/02
ISP-I-02-37        Embassy Cotonou, Benin                                                         08/02
ISP-I-02-38        U.S. Mission Geneva, Switzerland                                               09/02




   Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2002    71
     ISP-I-02-38A       Security Annex to the Inspection of U.S. Mission Geneva, Switzerland       09/02
     ISP-I-02-39        Consulate General Hamilton, Bermuda                                        09/02
     ISP-I-02-40        Embassy Kinshasa, Democratic Republic of the Congo                         09/02
     ISP-I-02-41        Embassy Luanda, Angola                                                     09/02
     ISP-I-02-42        Embassy Niamey, Niger                                                      08/02
     ISP-I-02-43        Embassy Ouagadougou, Burkina Faso                                          09/02
     ISP-I-02-44        Bureau of Public Affairs                                                   08/02
     ISP-I-02-45        Embassy Tbilisi, Georgia                                                   08/02
     ISP-I-02-46        U.S. Delegation to the Conference on Disarmament, Geneva, Switzerland      09/02
     ISP-I-02-47        Embassy Windhoek, Namibia                                                  08/02
     ISP-I-02-48        Embassy Yerevan, Armenia                                                   08/02
     ISP-I-02-52        Bureau of African Affairs                                                  09/02
     ISP-I-02-53        Bureau of Legislative Affairs                                              09/02

     Office of Audits
     AUD/FM-02-19       Foreign Service Retirement & Disability Fund                               09/02
     AUD/FM-02-25       International Boundary & water Commission Financial Statements
                        For FY 2001                                                                09/02
     AUD/FM-02-26       International Cooperative Administrative Support Services                  09/02
     AUD/PR-02-27       Department of State’s Foreign Service “Up-or-Out” System                   08/02
     AUD/PR-02-28       Attestation Review of Annual Accounting of Drug Control Funds              09/02
     AUD/FM-02-29       RFMS Data Conversion Binder - Preliminary Review                           09/02
     AUD/FM-02-30       RFMS Test Documentation Standard                                           09/02
     AUD/PR-02-31       Review of the Bridge Fund                                                  09/02
     AUD/PPA-02-33      Audit of Billings for Embassy Ottawa’s Surveillance Detection Program      09/02
     AUD/CG-02-35       Review of Direct Labor & Indirect Rates Proposed by
                        Garrison Architects                                                        09/02
     AUD/FM-02-39       Review of the Regional Procurement Support Offices                         09/02
     AUD/PPA-02-40      Review of the Department of State’s Monitoring of Contractor Performance   09/02
     AUD/CG-02-43       Review of Lockerbie Trial Costs                                            09/02
     AUD/CG-02-44       Follow Up Review of Iraqi National Congress Support Foundation             09/02

     Information Technology
     IT-A-02-04       Consular Affairs Information Security Program                                08/02
     IT-A-02-06       Information Security Program Evaluation Report                               09/02




72           Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2002
APPENDIX 3: SAVINGS & MORE EFFECTIVE USE OF RESOURCES


                                               Table I
                               INSPECTOR GENERAL ISSUED AUDIT REPORTS1
                                       WITH QUESTIONED COSTS2


                                                                 Number            (Dollars in Thousands)
                                                                of Reports Questioned Costs Unsupported Costs


    A.      For which no management decision has been
            made by the commencement of the reporting
            period                                                     15            20,387             13,602

    B.      Which were issued during the reporting period              23               195                   0

    Subtotals (A2 + B)                                                 17            20,582             13,602

    C.      For which a management decision was made
            during the reporting period
            – based on formal administrative
               or judicial appeal
            (i) dollar value of disallowed costs                        0                  0                  0
            (ii) dollar value of costs not disallowed                   0                  0                  0

    D.      For which no management decision has been
            made by the end of the reporting period                    17            20,582             13,602

            Reports for which no management decision
            was made within 6 months of issuance                       15            20,387             13,602




    ––––––––––––––––––


     1
          Includes audit reports issued by the Office of Audits and by the Office of Security and Intelligence Oversight.    .
     2
       Questioned costs are costs that are questioned by the OIG because of an alleged violation of a provision of a law,
    regulation, contract, grant, cooperative agreement, or other agreement or document governing the expenditure of
    funds; a finding that, at the time of the audit, such costs are not supported by adequate documentation; or a finding that
    the expenditure of funds for the intended purpose is unnecessary or unreasonable.
     3
         One of the reports had both a questioned cost and funds to be put to better use.



           Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2002                          73
                                 Table II
                 INSPECTOR GENERAL ISSUED AUDIT REPORTS
          WITH RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE1


                                                                           Number            Dollar Value
                                                                          of Reports      (in thousands)


     A. For which no management decision has been made
        by the commencement of the reporting period                           5                 1,541

     B. Which were issued during the reporting period                         22              13,241

          Subtotals (A + B)                                                   7               14,781

     C. For which a management decision was made
        during the reporting period                                           0                      0

          (i) dollar value of recommendations that were
              agreed to by management                                         0                      0
              – based on proposed management action
              – based on proposed legislative action

          (ii) dollar value of recommendations that were
               not agreed to by management                                    0                      0

     D. For which no management decision has been
        made by the end of the reporting period                               7               14,781

          Reports for which no management decision
          was made within 6 months of issuance                                5                 1,541




     ––––––––––––––––––


      1
        A “recommendation that funds be put to better use” is a recommendation by the OIG that funds could
     be used more efficiently if Department management took actions to implement and complete the rec-
     ommendations, including: reductions in outlays; deobligation of funds from programs or operations;
     withdrawal of interest subsidy costs on loans or loan guarantees, insurance, or bonds; costs not in-
     curred by implementing recommended improvements related to the operations of the Department, a
     contractor, or a grantee; avoidance of unnecessary expenditures noted in preaward reviews of contract
     or grant agreements; or any other savings which are specifically identified.
      2
       One of the reports had both a questioned cost and funds to be put to better use.




74   Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2002
APPENDIX 4: RESOLUTION                           OF     REPORTS & RECOMMENDATIONS




                                 PREVIOUSLY REPORTED SIGNIFICANT AUDIT
                                RECOMMENDATIONS1 PENDING FINAL ACTION2

 Report   Rec.   Report Title                                                                       First
 Number Number Recommendation Summary                                                             Reported




 93-A-34/
 ARR-95-08 Grants Management Follow Up                                                            3/31/95
           5.    Require monthly reporting requirements on the project’s status.
           6.    Ensure that data in the grants system is reconciled with data in other
                 grant-related systems.


 APR-96-07 Exchange Visitor Information System                                                    3/31/96
           3.    Determine the feasibility of electronically transmitting J Visa data from
                 sponsor organizations to the EVIS database at USIA.




  ––––––––––––––––––


    1
      Includes audit recommendations reported as significant in semiannual reports prior to March 31,
  2002, on which Department management has agreed to take corrective action but for which those
  actions are not yet complete.
    2
      Final action is recorded when a proposed course of action in response to a recommendation has
  been accepted by OIG and completed by management to OIG’s satisfaction.




     Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2002            75
                             SUMMARY OF AUDIT REPORTS
          WITHOUT MANAGEMENT DECISION FOR MORE THAN SIX MONTHS



     Management of Secure Communications (SIO/A-97-15), March 1997
     Summary: OIG made 22 recommendations to the Director General of the Foreign Service
              and the Director of Personnel (now Human Resources) to require personnel,
              like IM specialists staff, who hold positions with access to bulk quantities of
              sensitive information to undergo a special counterintelligence screening
              process prior to each assignment. Three of the recommendations, which
              were assigned to the Director General of the Foreign Service, remain unre-
              solved.
     Reason Unresolved: The Director General of the Foreign Service has not responded,
               formally or informally to the report and subsequent follow up inquiries.
     To be resolved by: December 2002


     North/South Center (ARR-94-03), March 1994
     Summary: OIG recommended that USIA seek reimbursement of $1,507,261 in ques-
              tioned costs, approximately $1 million of which resulted from an inequitable
              allocation of indirect costs to the Center. The Department of Health and
              Human Services, which has audit cognizance, established new indirect cost
              rates.
     Reason unresolved: The Department deferred action on about $480,000 in remaining
               questioned costs pending further consultation with the Bureau of Educational
               and Cultural Affairs and awaiting additional information from the bureau.
     To be resolved by: February 2003


     International Institute of Wisconsin (CG-96-01), September 1996
     Summary: OIG made recommendations on questioned grant costs totaling $46,636 and
              internal controls and noncompliance issues.
     Reason Unresolved: The Department is seeking clarification and documentation from the
               grantee.
     To be resolved by: February 2003


     Review of Indirect Costs Rates Proposed by the Institute of International Education
                 (CG-99-015), May 1999
     Summary: OIG made recommendations on questioned costs totaling $1,054.098 that
              resulted from an inequitable allocation in indirect costs.
     Reason Unresolved: The Department deferred a decision on the questioned costs
               pending completion of the appeal process.
     To be resolved by: February 2003




76   Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2002
                        SUMMARY OF AUDIT REPORTS
     WITHOUT MANAGEMENT DECISION FOR MORE THAN SIX MONTHS



Sale and Leaseback Arrangement Proposed by the Institute of International Educa-
           tion      (CG-99-016), May 1999
Summary: OIG made recommendations on the sale and leaseback arrangement proposed
         by the grantee that did not constitute a sale and leaseback within the meaning
         of the OMB cost principles and projected Funds Put to Better Use of
         $4,300,000 over the life of the lease.
Reason Unresolved: The Department deferred a decision pending completion of the
          appeal process.
To be resolved by: February 2003


Washington Workshops Foundation (CG-99-025), September 1999
Summary: OIG made recommendations on questioned costs totaling $913,000 and
         internal controls and compliance issues.
Reasons Unresolved: The Department is seeking clarification from the grantee.
To be resolved by: February 2003


Town Affiliation Association of the U.S. (00-CG-019), July 2000
Summary: OIG made recommendations on questioned costs totaling about $908,812 and
         internal controls and compliance issues.
Reason Unresolved: The Department is reviewing additional documentation provided by
          the grantee.
To be resolved by: February 2003


The American Councils for International Education (00-CG-032), September 2000
Summary: OIG made recommendations on questioned costs totaling $1,186,847 and
         compliance issues.
Reason Unresolved: The Department is seeking clarification and additional documenta-
          tion from the grantee.
To be resolved: February 2003




Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2002   77
78   Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2002
                                      BBG
                         transmittal letter

                             to be inserted

                                        here.




Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2002   79
80   Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2002
       BROADCASTING BOARD OF GOVERNORS


Review of the Broadcasting Board of
Governors’ Controls on Domestic Personal
Property (IBO-A-02-03)

To assess how well the IBB was managing its assets, OIG reviewed the policies and
procedures for the management of and controls and accounting for IBB’s domestic,
nonexpendable personal property from October 1999 to March 2002. This review
covered the domestic inventory operations of IBB’s six property management units:
Voice of America, Office of WORLDNET Television and Film Service, Office of
Engineering and Technical Services, Office of Management, Office of Computing
Services, and Office of Cuba Broadcasting. The primary objectives of the review
were to determine whether IBB had established policies for inventory controls and
was implementing them and, if so, whether they were effective. OIG also reviewed
whether the Office of Cuba Broadcasting was in compliance with property manage-
ment recommendations made in a 1999 report (99-IB-023, Sept. 1999).

     OIG found that IBB did not have fully functioning property management
policies and procedures for domestic, nonexpendable property to ensure the effi-
ciency and effectiveness of operations and to meet agency property reporting
requirements fully. Although current policies require that domestic property invento-
ries be conducted every two years, OIG found no evidence of a complete property
inventory conducted by IBB.

    IBB internal controls related to personal property need to be strengthened to
ensure that government property is properly used and safeguarded and that reliable
and timely data is maintained on such property. The Office of Administration,
Facilities Management Division recognized the need for planning improvements in
the property system and was taking steps in that direction– for example, updating
property policies and procedures and placing a major focus on disposing of excess
property, which should facilitate the physical inventory process. In general, the
Office of Cuba Broadcasting had implemented all the recommended changes in the
1999 report and was continuing to improve its overall property management func-
tion in accordance with established IBB policies and procedures.




Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2002   81
            BROADCASTING BOARD OF GOVERNORS
          Major recommendations are that IBB conduct an agency-wide inventory to
     establish an accurate baseline for its domestic, nonexpendable personal property and
     implement a plan to bring it into compliance with applicable accounting and report-
     ing requirements for property management. Part of that plan should include estab-
     lishing a single, centralized receiving operation for all international broadcasting
     offices and establishing a mandatory annual training requirement for property
     management personnel.




     Inspection of BBG Regional Operations in
     West Africa (IBO-I-02-04)

     The BBG regional marketing and program placement office (RMPPO) and the VOA
     news bureau for West Africa are located in Abidjan, Côte d’Ivoire because it remains
     the best all around location from which to support regional operations. Africa is
     VOA’s largest shortwave listening audience. VOA’s West Africa Bureau consists of
     18 countries, including Nigeria. Nigeria is VOA’s single best audience in the world by
     number of listeners. The Abidjan VOA news bureau is responsible for countries
     from Cape Verde to the Democratic Republic of the Congo. The bureau is well run
     but needs to pay its stringers in the region using electronic funds transfers. RMPPO
     needs to have a standard operating procedures manual for embassies in the region to
     ensure uniform support.

          VOA program placement in Nigeria has been hampered by major equipment
     control problems. The most egregious situation was the loss without a trace of
     $200,000 worth of equipment the RMPPO officer had arranged to go to eight
     stations in Nigeria, including an important FM radio affiliate in Lagos. The equip-
     ment was shipped by sea by IBB, but the consignment apparently was never cleared
     in Lagos by the general services office of Consulate General Lagos. BBG has subse-
     quently told OIG that, given the importance of the main VOA affiliate in Lagos for
     which the bulk of the equipment was intended, it will replace the equipment.
     RMPPO and the Department have suggested controls that should help to ensure
     proper receipt of future shipments of equipment. The replacement of lost FM
     systems for affiliates in Lagos, Abuja, Kano, and Kaduna, Nigeria, will be sent by
     more secure separate air shipments, and all four broadcasting systems are projected
     to be on the air by October 2002.

         It is important that VOA be on the air in Freetown, Sierra Leone and its environs
     with a strong signal while the process of disarmament, demobilization, and reinte-
     gration of the rebel fighters of the Revolutionary United Front continues, and as the

82   Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2002
United States seeks understanding and support from Muslim countries for the war
against international terrorism. RMPPO and the IBB are to be commended for
addressing this situation effectively. The RMPPO officer accomplished this by
visiting Sierra Leone after the inspection and obtaining a radio frequency allocation
from the Sierra Leone government for a proposed VOA-owned station to broadcast
24 hours a day, seven days a week. The new station, for which IBB has now pro-
cured equipment, will be collocated with the physical plant of an existing, but only
intermittently functional VOA affiliate. This arrangement will have the additional
effect of making two existing and commonly owned VOA affiliates economically
viable.

     Embassy Monrovia has pressed the Liberian government on a number of issues,
including media freedom. Radio is the primary means for getting information to the
Liberians. It has an extremely important role to play in Liberia in strengthening the
civil society, enabling the United States to communicate directly to the Liberians, and
preventing a monopoly of the airwaves in Liberia by the Taylor regime. It also gives
Sierra Leonean refugees in Liberia the reassurance they need about the progress of
the disarmament, demobilization, and reintegration of the Revolutionary United
Front in Sierra Leone’s diamond-rich areas, so that they can have the confidence to
repatriate themselves voluntarily. In addition, a healthy, fully functioning VOA
affiliate, Radio Veritas, could be an important part of regional broadcasting for the
Mano River Union: Guinea, Sierra Leone, and Liberia. VOA working level officials
showed interest in a regional approach and cited the success of USAID-sponsored
programs targeted to Angola.




Review of Administrative Operations of Radio
Free Europe/Radio Liberty Bureaus
(IBO-A-02-05)

OIG reviewed the administrative operations of Radio Free Europe/Radio Liberty
(RFE/RL) to determine whether bureaus are complying with current host country
laws regulating employment tax and social contributions for bureau staff. OIG also
sought to determine whether administrative controls for procurement, cash, and
inventory management were in place at the RFE/RL news bureaus.

   RFE/RL based in Prague, Czech Republic, operates 30 news bureaus in Eastern
Europe, Central Asia, South Asia, and the Persian Gulf. As a private corporation
operating with a federal grant from the BBG, RFE/RL is required to meet host
country labor and tax compliance laws. In a 1999 audit, OIG identified non-pay-


Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2002   83
     ment of such taxes as a potential liability for the U.S. government. The review this
     year focused on bureaus RFE/RL identified as in compliance. OIG selected four
     bureaus– Moscow, Russia; Sarajevo, Bosnia; Kiev, Ukraine; and Sofia, Bulgaria.
     RFE/RL compliance practices were verified with host country laws, U.S. embassy
     practices, and outside legal consultants in each country.

         At the time of the review, RFE/RL listed 21 bureaus in compliance, three in
     process, and six on hold because of political and economic conditions in these
     countries. OIG found that in the four bureaus reviewed RFE/RL was in compliance
     with country labor and tax laws. However, the process is complex and requires
     continual updating once compliance has been achieved. Laws require host country
     registration as a corporation, signed and legal labor contracts with local staff, and tax
     rates that may change several times during the year. RFE/RL bureau administration
     employees based in Prague work with the bureaus operating in the 30 countries to
     ensure host country labor and tax laws are met. These employees have been contrac-
     tors who are not paid full employee benefits. As a result, employee turnover is high
     and the loss of competent staff places the compliance process at risk while new
     employees learn the procedures for individual countries. OIG recommended that
     RFE/RL convert two positions from contractors to permanent staff with full
     employee benefits to retain trained competent staff and reduce turnover.

                         Geographical List of RFE/RL Bureaus




        Legend
                                           RFE/RL Bureau

                                           Site Visited

                                           RFE/RL Headquarters


84   Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2002
    Other administrative practices were reviewed, including cash management and
inventory procedures. OIG found obsolete and unused equipment that could be
donated. BBG has the authority to allow a grantee to donate obsolete and unused
equipment that could save RFE/RL storage costs for excess equipment. One
recommendation was made for RFE/RL to request authority from BBG to dispose
of this equipment.




Inspection of the Broadcasting Board of
Governors Belize Transmitting Station
(ISP-I-02-17)

The BBG Belize Transmitting Station is a remnant dating back to the period of civil
wars and strife in Central America. The station is a state of the art, well-run, inex-
pensive operation serving a need that no longer exists. Listeners in the region can
receive BBG broadcasts from affiliate or short-wave stations. Efforts to redirect the
station’s broadcasts toward Cuba have met with firm resistance from the government
of Belize. Many of the station’s assets can be used elsewhere to meet high priority
needs. In the absence of agreement from the Belize government, the BBG should
determine the most effective future use of the station’s assets.




Information Security Program Evaluation:
Broadcasting Board of Governors (IT-A-02-07)

In response to GISRA, OIG performed an independent review and evaluation of
the information security program of the BBG. GISRA provides a comprehensive
framework for establishing and ensuring the effectiveness of controls over informa-
tion technology resources, and a mechanism for improved oversight of federal
agency information security programs. The objective of the review was to deter-
mine whether BBG is effectively implementing the requirements of GISRA.

    OIG’s evaluation of the effectiveness of BBG’s information security program
concluded that BBG has made progress, but more must be done to comply with
GISRA. BBG has developed an agency-wide information security program, and it
has performed program level self-assessments and documented the results of its self-




Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2002   85
     assessments in its quarterly reporting of the agency’s plans of action and milestones
     to the Office of Management and Budget. Included in this reporting was the identi-
     fication of 37 information security weaknesses, of which 20 have been corrected.
     Also, BBG is in the process of hiring a contractor to develop and revise required
     information security related policies and procedures to satisfy its needs.

         OIG found that BBG needed to develop an incident response process and
     reporting procedures to share information effectively on common vulnerabilities and
     threats. Also, OIG concluded that BBG lacks security and contingency plans at the
     system and major application level and needed to develop these plans to meet its
     information security requirements and comply with GISRA. Finally, OIG found that
     BBG lacked an information security training program and must develop and imple-
     ment a program that addressed the needs of the agency and its employees.




86   Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2002
              APPENDIX I: INVESTIGATIVE ACTIVITIES
              A
              APPENDIX
                PPENDIX 1:
                        I: IINVESTIGATIVE
                             NVESTIGATIVE A
                                          ACTIVITIES
                                            CTIVITIES



                            Workload

                            Cases pending 3/31/02                                    1
                            New cases opened                                         0
                            Cases closed                                             0
                            Cases pending 9/30/02                                    1


                            Total Judicial Actions                                  0

                            Prosecutive Referral                                    0
                            Prosecutive Declination                                 0

                            Total Administrative Actions                            0




                The statistics and narrative case descriptions of investigative activities appearing
                in this Semiannual Report to the Congress are the result of reports received from
                prosecutive and administrative authorities. The final actions may be changed at a
                later date by individual use of administrative and judicial appeals processes.




                    AAPPENDIX
                       APPENDIX
                       PPENDIX 2:2:
                              2:  RREPORTS IISSUED
                                     REPORTS
                                    EPORTS      ISSUED
                                              SSUED
                    A PPENDIX  2: R EPORTS  I
                    APPENDIX 2: REPORTS ISSUEDSSUED



IBO-A-02-03        Review of the Broadcasting Board of Governors Controls
                   on Domestic Personal Property                                                       09/02
IBO-I-02-04        Inspection of BBG Regional Operations in West Africa                                09/02
IBO-A-02-05        Review of Administrative Operations of Radio Free Europe/
                   Radio Liberty Bureaus                                                               09/02
ISP-I-02-17        Inspection of the Broadcasting Board of Governors’ Belize
                   Transmitting Station                                                                05/02
IT-A-02-07         Information Security Program Evaluation:
                   Broadcasting Board of Governors                                                     09/02



    Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2002               87
APPENDIX 3: SAVINGS & MORE EFFECTIVE USE OF RESOURCES


                                                       Table I
                                       INSPECTOR GENERAL ISSUED AUDIT REPORTS
                                               WITH QUESTIONED COSTS
                                                              Number            (Dollars in Thousands)
                                                             of Reports Questioned Costs Unsupported Costs

       A.   For which no management decision has been made
            by the commencement of the reporting period           0                  0              0

       B.   Which were issued during the reporting period         0                  0              0

            Subtotals (A + B)                                     0                  0              0

       C.   For which a management decision was made
            during the reporting period                           0                  0              0

            – based on formal administrative or
               judicial appeal
            (i) dollar value of disallowed costs                  0                  0              0
            (ii) dollar value of costs not disallowed             0                  0              0

       D.   For which no management decision has been
            made by the end of the reporting period               0                  0              0

            Reports for which no management decision
            was made within 6 months of issuance                  0                  0              0


                                                   Table II
                                    INSPECTOR GENERAL ISSUED AUDIT REPORTS
                             WITH RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE

                                                                         Number            Dollar Value
                                                                        of Reports       (in thousands)

       A.   For which no management decision has been made
            by the commencement of the reporting period                     0                   0
       B.   Which were issued during the reporting period                   0                   0

            Subtotals (A + B)                                               0                   0

       C.   For which a management decision was made
            during the reporting period                                     0                   0

            (i) dollar value of recommendations that were
                agreed to by management                                     0                   0
                – based on proposed management action
                – based on proposed legislative action

            (ii) dollar value of recommendations that were
                 not agreed to by management                                0                   0

       D.   For which no management decision has been
            made by the end of the reporting period                         0                   0

            Reports for which no management decision
            was made within 6 months of issuance                            0                   0



  88           Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2002
                        SUMMARY OF AUDIT REPORTS
     WITHOUT MANAGEMENT DECISION FOR MORE THAN SIX MONTHS

International Broadcasting Oversight

BBG Transition to Independence (01-FP-M-018), March 2001
Summary: OIG made seven recommendations to the Broadcasting Board of Governors
         (BBG) and the Department of State to finalize a series of memoranda concern-
         ing operating agreements, follow through with establishing a financial service
         center at BBG, determine the level of BBG support to the Department for
         interactives and other diplomacy programming on a non-reimbursable basis,
         and resolve differences concerning U.S. chief of mission authority over Voice
         of America correspondent travel overseas. One recommendation to the
         Department’s Office of the Undersecretary for Public Diplomacy and Public
         Affairs remains unresolved. It calls for the development of a programming
         needs assessment to support requests for BBG transmission services.
Reason Unresolved: The Department’s Office of the Undersecretary for Public Diplomacy
          and Public Affairs has not responded, formally or informally, to the report and
          subsequent follow up inquiries. An OIG inspection of the Department’s Bureau
          of Public Affairs indicates that funding has now been approved to conduct the
          programming needs assessment and the study can move forward.
To be resolved by: January 2003
BBG Audience Research Program (01-FP-R-042), May 2001
Summary: OIG made seven recommendations to BBG to establish procedures to ensure
         that Board language priorities are considered in allocating audience research
         funds, ensure the broadcast entities document the use of research recommen-
         dations in making broadcast and programming decisions, require the broad-
         cast entities to work with the IBB Strategic Planning Office to improve the
         agency’s GPRA planning and reporting process, and ensure that the audience
         research contracting practices of Radio Free Europe/Radio Liberty (RFE/RL)
         and Radio Free Asia adhere to OMB guidance. One recommendation remains
         unresolved dealing with the broadcast entities’ need to document their use of
         audience research in making decisions on programs.
Reason Unresolved: The BBG management decision of August 15, 2001, concerning this
          recommendation indicates that it may have misunderstood the intent of the
          recommendation. BBG commented that to comply with the recommendation
          would require the establishment of a new GPRA “measurement bureaucracy.”
          In our December 2001 response to BBG, we disagreed and pointed out that
          the recommendation does not relate to GPRA requirements. In general, we
          noted that the recommendation addresses the requirement in the BBG
          audience research charter that “broadcast management demonstrate system-
          atic use of audience research.” In addition, we pointed out that RFE/RL
          already had made strides in implementing a process that, if fully implemented,
          should satisfy our recommendation and could be used as a model for the other
          broadcast entities. As of the end of September 2002, BBG had not answered
          the OIG December 2001 response.
To be resolved by: January 2003




Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2002   89
     Review of the Broadcasting Board of Governors’ Affiliates Program (IBO-A-02-01)
     November 2001

     Summary: OIG made seven recommendations to (BBG) to complete and implement a
          comprehensive strategic plan for the affiliates program, to design and implement a
          plan to improve and maintain an affiliates database to include an option of using
          Department of State public affairs personnel to update the base, to ensure the Office
          of Affiliate Relations has the resources to carry out Board strategy, to prioritize affiliate
          stations for support and communicate with specific Foreign Service posts, to
          periodically communicate priorities and support requirements to recruit and maintain
          affiliate stations to public affairs sections of Foreign Service posts, to develop
          procedures to ensure that IBB distributes new and used equipment to affiliate stations
          in support of strategic priorities, and to develop and implement standard operating
          procedures requiring affiliate marketing staff to review and update affiliate
          agreements. All recommendations are unresolved.

     Reasons Unresolved: BBG is still in the process of finalizing its strategic plan. The board
           intended to complete the plan by July 2002; however, it is still being reviewed by
           external agencies. Once the plan has been received, IBB will forward responses to
           the OIG for all of the recommendations.

     To be resolved by: January 2003




90   Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2002
                        LIST OF ABBREVIATIONS
                      LIST OF ABBREVIATIONS
                      LIST OF ABBREVIATIONS
                      LIST OF ABBREVIATIONS



            AF        Bureau of African Affairs
          BBG         Broadcasting Board of Governors
            CA        Bureau of Consular Affairs
            CD        Conference on Disarmament
          CNP         Colombian National Police
          COR         Contracting officers representative
         DCM          Deputy Chief of Mission
    Department        Department of State
          EAP         Emergency Action Plan
          FSN         Foreign Service national
       GISRA          Government Information Security Reform Act
             H        Bureau of Legislative Affairs
           IBB        International Broadcasting Bureau
         IDNS         Imminent danger notification system
        INCSF         Iraqi National Congress Support Foundation
          MPP         Mission Performance Plan
         NED          National Endowment for Democracy
          OBO         Office of Overseas Buildings Operations
            PA        Bureau of Public Affairs
         PCIE         President’s Council on Integrity and Efficiency
         RFMS         Regional Financial Management System
      RMPPO           Regional marketing and program placement office
          SEO         Scottish Executive Office
           SEP        Special Embassy Program
         USIA         United States Information Agency
         USTR         United States Trade Representative
          VOA         Voice of America
         WTO          World Trade Organization




Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2002   91
92   Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2002
                          INDEX OF REPORTING REQUIREMENTS
                  INSPECTOR GENERAL ACT OF 1978, AS AMENDED



REQUIREMENT       SUBJECT                                                             PAGE NUMBERS

Section 4(a)(2)   Review of legislation and regulations                                            14-15
Section 5(a)(1)   Significant problems, abuses, and deficiencies                           21-59, 81-86
Section 5(a)(2)   Significant recommendations for corrective action                        21-59, 81-86
Section 5(a)(3)   Prior significant recommendations unimplemented                                      75
Section 5(a)(4)   Matters referred to prosecutive authorities                                      61-67
Section 5(a)(5)   Information or assistance refused                                                None
Section 5(a)(6)   List of reports issued                                                       71-72, 87
Section 5(a)(7)   Summaries of significant reports                                         21-59, 81-86
Section 5(a)(8)   Audit reports–questioned costs                                                  73, 88
Section 5(a)(9)   Audit reports–funds to be put to better use                                     74, 88
Section 5(a)(10) Prior audit reports unresolved                                            76-77, 89-90
Section 5(a)(11) Significant revised management decisions                                          None
Section 5(a)(12) Significant management decisions with which OIG disagreed                         None




        Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2002        93
                            Summary of OIG Accomplishments
                  Financial Results:

                  Questioned costs
                     Issued during the reporting period                           $   195,956
                     Management decision during the reporting period              $         0
                  Recommendations for funds to be put to better use
                     Issued during the reporting period                           $ 13,241,301
                     Management decision during the reporting period              $          0
                  Investigative recoveries                                        $ 3,376,482

                  Investigative Results:

                  Cases opened                                                             17
                  Cases closed                                                             29
                  Judicial actions                                                         25
                  Administrative actions                                                   33
                  Hotline and complaint activity                                          171

                  Reports Issued:                                                          71




                         Pictured on Front Cover: Embassy Niamey, Niger

                   Picture provided by Office of Overseas Buildings Operations


                             Requests for additional copies of this publication
                             should be addressed to:

                                      Office of Inspector General
                                      U.S. Department of State
                                      OIG/CPO, Room 810
                                      1700 North Moore Street
                                      Arlington, VA 22209



                                   Department of State Publication 11003
                                        Office of Inspector General
                                         Released November 2002




94   Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2002
                               TABLE OF CONTENTS
                               TABLE OF CONTENTS
                              TABLE OF CONTENTS

A MESSAGE FROM THE INSPECTOR GENERAL . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
CONGRESSIONAL ACTIVITIES AND OUTREACH . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

DEPARTMENT OF STATE
  SPECIAL REPORT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
  SECURITY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
  INSPECTIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25
  AUDITS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 47
  INFORMATION TECHNOLOGY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 57
  INVESTIGATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 61
  APPENDIX 1: INVESTIGATIVE ACTIVITIES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 69
  APPENDIX 2: REPORTS ISSUED . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 71
  APPENDIX 3: SAVINGS AND MORE EFFECTIVE USE OF RESOURCES
      Table 1: Questioned Costs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 73
      Table 2: Funds Put to Better Use . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 74
   APPENDIX 4: RESOLUTION OF REPORTS & RECOMMENDATIONS
      Previously Reported Signifcant Audit Recommendations . . . . . . . . . . . . . . 75
      Audit Reports Pending Management Decision . . . . . . . . . . . . . . . . . . . . . . 76

BROADCASTING BOARD OF GOVERNORS
  AUDITS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 81
  APPENDIX 1: Investigative Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 87
  APPENDIX 2: Reports Issued . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 87
  APPENDIX 3: Savings and More Effective Use of Resources
     Table 1: Questioned Costs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 88
     Table 2: Funds Put to Better Use . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 88

LIST OF ABBREVIATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 91
INDEX OF REPORTING REQUIREMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 93




Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2002                                      95
              FRAUD, WASTE, ABUSE, OR MISMANAGEMENT
                      of Federal programs and resources
                               hurts everyone.

                            Call the Office of Inspector General
                                         HOTLINE
                                        202/647-3320
                                     or 1-800-409-9926
                              or e-mail oighotline@state.gov
                            to report illegal or wasteful activities.

                                    You may also write to
                                 Office of Inspector General
                                  U.S. Department of State
                                    Post Office Box 9778
                                    Arlington, VA 22219

                           Please visit our website at oig.state.gov

                              Cables to the Inspector General
                             should be slugged “OIG Channel”
                                  to ensure confidentiality.




96   Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2002
